   February 19, 2002




Defense Weather Program

Meteorological and Oceanographic
Support From Continental
United States-Based Support Centers
(D-2002-052)




              Department of Defense
          Office of the Inspector General
Quality                Integrity      Accountability
Additional Copies

To obtain additional copies of this audit report, visit the Inspector General,
DoD, Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary
Reports Distribution Unit of the Audit Followup and Technical Support
Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits

To suggest ideas for or to request audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
fax (703) 604-8932. Ideas and requests can also be mailed to:

                  OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
The identity of each writer and caller is fully protected.




Acronyms

AFWA          Air Force Weather Agency
COAMPS        Coupled Ocean/Atmosphere Mesoscale Prediction System
C4I           Command, Control, Communications, Computers, and
                Intelligence
FNMOC         Fleet Numerical Meteorology and Oceanography Center
METOC         Meteorological and Oceanographic
MM5           Mesoscale Model Version 5
NWP           Numerical Weather Prediction
ORD           Operational Requirements Document
                       Office of the Inspector General, DoD
Report No. D-2002-052                                                February 19, 2002
  (Project No. D2000LG-0102.05)

             Meteorological and Oceanographic Support From
             Continental United States-Based Support Centers

                                  Executive Summary

Introduction. This report is the sixth in a series evaluating the effectiveness and
efficiency of DoD meteorological and oceanographic (METOC) support provided by
the Military Departments to DoD and other governmental agencies.

Background. Chairman of the Joint Chiefs of Staff Instruction 3810.01A,
“Meteorological and Oceanographic Operations,” February 25, 1998, states that the
Chairman of the Joint Chiefs of Staff is responsible for coordinating, evaluating, and
integrating operational METOC requirements between the Military Departments.
Chairman of the Joint Chiefs of Staff Instruction 3810.01A also requires the Services to
assist each other, where feasible, in accomplishing METOC support, including
coordinating research and development efforts to avoid duplication and to ensure
commonality in the development of METOC capabilities. Joint Publication 3-59, “Joint
Doctrine, Tactics, Techniques, and Procedures for Meteorological and Oceanographic
Operations,” December 22, 1993 (updated March 23, 1999), also requires the Services
to collaborate and coordinate METOC services to ensure they support a “one theater,
one forecast” concept. The DoD Joint Technical Architecture, “Joint Interoperability
and Warrior Support” (version 4.0), April 2, 2001, provides a minimum set of
standards that, when implemented, facilitates interoperability during joint operations by
mandating interoperability standards for system development. The Navy and the Air
Force are the primary providers of METOC support for DoD and U.S. national
programs.
Objectives. We evaluated METOC services and support provided by Navy and Air
Force regional centers in the continental United States. In addition, we evaluated Navy
and Air Force numerical weather prediction (NWP) models and the feasibility of jointly
developing METOC acquisition category III and below programs. We also evaluated
the management control program as it related to the audit objectives.

Results. The Navy and the Air Force were providing Service-specific, and not
overlapping, METOC support from regional centers in the continental United States.
In addition, the Air Force Weather reengineered training concept improved the quality
of Air Force Weather forecasts and the efficiency of resources (see Appendix B).
The Navy and the Air Force use different Service-specific mesoscale NWP models
despite the ability of those models to forecast similar atmospheric conditions. In
addition, the Navy and the Air Force are in the process of separately developing
next-generation mesoscale NWP models rather than developing a standard DoD
mesoscale model. As a result, the Fleet Numerical Meteorology and Oceanography
Center (FNMOC) and the Air Force Weather Agency (AFWA) were not capable of
providing adequate and uninterrupted backup for each other, including NWP support,
should one center be unable to meet its operational requirements (finding A).
The Navy and the Air Force did not always review and comment on operational
requirements documents for METOC acquisition category III and below programs.
Specifically, of the 18 Navy and Air Force operational requirements documents for
FY 2001 METOC acquisition category III and below programs, valued at
$486.9 million, 9, valued at $190.5 million, had not been reviewed by both the Navy
and the Air Force for potential joint involvement. As a result, the Navy and the Air
Force might be acquiring METOC acquisition category III and below programs that
could be supported by existing systems or technology. In addition, the Services might
not be deriving benefits that could flow from jointly developing, funding, and managing
METOC programs (finding B).
See Appendix A for details on our review of the management control program.
Summary of Recommendations. We recommend the Oceanographer of the Navy and
the Air Force Director of Weather implement the initiative “Implement Joint Theater
Forecast Consistency” and cooperatively develop the next-generation DoD standard
mesoscale NWP model. We recommend the Commanding Officer, FNMOC and the
Commander, AFWA develop a viable continuity of operations plan and include all DoD
Joint Technical Architecture Command, Control, Communications, Computers,
Intelligence (C4I), Surveillance, and Reconnaissance Domain standards in their existing
technical architecture framework. We recommend the Chairman of the Joint Chiefs of
Staff revise Joint Publication 3-59 to include doctrine that addresses joint modeling.
We recommend the Navy and the Air Force revise their concepts of operations for
providing METOC support based on revisions to the joint doctrine. We also
recommend the Navy and the Air Force develop procedures for coordinating,
reviewing, and commenting on operational requirements documents for METOC
acquisition category II and below programs.
Management Comments. The Oceanographer of the Navy agreed with implementing
the initiative about joint theater consistency; however, the Air Force Director of
Weather nonconcurred, stating that the initiative does not require the Navy and the Air
Force to develop a joint mesoscale model. The Oceanographer of the Navy and the Air
Force Director of Weather agreed with cooperatively developing the next-generation
standard mesoscale model. The Oceanographer of the Navy agreed with the need to
develop a viable continuity of operations plan with the Air Force; however, the Air
Force Director of Weather disagreed, stating that although there was room for
improvement, an effective backup occurs today among AFWA, FNMOC, and the
National Weather Service’s National Centers for Environmental Prediction. The
Oceanographer of the Navy also concurred with including all DoD Joint Technical
Architecture C4I, Surveillance, and Reconnaissance Domain standards in existing
technical architecture framework. The Air Force Director of Weather nonconcurred,




                                           ii
stating that its system only provides data into C4I, Surveillance, and Reconnaissance-
related systems; therefore, the Air Force is only required to conform to the rules of
data exchange. The Joint Staff disagreed with revising Joint Publication 3-59 to include
doctrine that addresses joint modeling, stating that this report mistakenly equates
mesoscale NWP modeling processes and products with operational forecasts. The
Oceanographer of the Navy concurred with revising Navy guidance to address joint
modeling based on revisions to Joint Publication 3-59. The Air Force Director of
Weather nonconcurred with revising Air Force guidance to address joint modeling,
stating that Joint Publication 3-59 should not address specific solutions, such as joint
modeling. The Oceanographer of the Navy and the Air Force Director of Weather
agreed with the need to coordinate and review operational requirements documents for
METOC acquisition II and below programs. A discussion of management comments
on the recommendations is in the Findings section of the report, a discussion of Air
Force comments on finding A is in Appendix F, and the complete text is in the
Management Comments section.
Audit Response. In an era when transforming the military for the challenges of the
21st century is of paramount importance, we are concerned that the responses to the
report do not recognize that the thrust of the report was to promote greater cooperation
between the excellent METOC programs in the Navy and Air Force. Greater
cooperation can only improve and increase the value of weather forecasts for the
warfighter. Although the Navy concurred with the report’s recommendations, the
Navy did not specify how it would implement the recommendations for “Implement
Joint Theater Forecast Consistency” initiative; cooperatively developing the next-
generation mesoscale NWP model; developing a viable continuity of operations plan;
including all the joint architecture domain standards within their existing technical
architecture framework; and revising Navy guidance. We consider the Air Force
comments to be partially responsive in regard to cooperatively developing the next-
generation mesoscale NWP model, because they do not address a plan for the Navy and
the Air Force to jointly develop a next-generation mesoscale NWP model. The Air
Force comments were not responsive to the recommendation for “Implement Joint
Theater Forecast Consistency” initiative; developing a viable continuity of operations
plan; and including all the joint architecture domain standards within existing technical
architecture framework. We consider the Joint Staff comments to be nonresponsive in
regard to addressing the need for joint modeling in Joint Publication 3-59. The intent
of the recommendation was to address the need for joint modeling to support DoD
operations in Joint Publication 3-59, not to restrict how joint METOC support is
provided. Revision of the Joint Publication 3-59 will result in a requirement for the
Navy and the Air Force to revise their implementing guidance.
We request that the Joint Staff, the Navy, and the Air Force provide additional
comments on the final report by April 19, 2002.




                                           iii
Table of Contents

Executive Summary                                                          i


Introduction
     Background                                                            1
     Objectives                                                            3
     Support Initiatives                                                   3

Findings
     A. Joint Mesoscale Modeling                                          4
     B. Coodination and Review of Meteorological and Oceanographic
          Acquisition Category III Program Requirements                   25

Appendixes
     A. Audit Process
           Scope                                                          33
           Methodology                                                    33
           Management Control Program Review                              35
           Prior Coverage                                                 36
     B. Meteorological and Oceanographic Support and Training             37
     C. Navy Energy Conservation Forecast Program                         41
     D. Meteorological and Oceanographic Conditions Predicted by Navy
           and Air Force Mesoscale Models                                 43
     E. Navy and Air Force Mesoscale Numerical Weather Prediction Model
           Coverage                                                       44
     F. Air Force Comments on the Finding and Audit Response              46
     G. Report Distribution                                               48

Management Comments
     Joint Staff Comments                                                 51
     Department of the Navy Comments                                      55
     Department of the Air Force Comments                                 58
Background
    Joint Chiefs of Staff Responsibilities. Chairman of the Joint Chiefs of Staff
    Instruction 3810.01A, “Meteorological and Oceanographic Operations,”
    February 25, 1998, states that the Chairman of the Joint Chiefs of Staff is
    responsible for coordinating, evaluating, and integrating operational
    meteorological and oceanographic (METOC) requirements between the Military
    Departments. In addition, Chairman of the Joint Chiefs of Staff
    Instruction 3810.01A requires the Services to assist each other, where feasible,
    in accomplishing METOC support, including coordinating research and
    development efforts to avoid duplication and to ensure commonality in the
    development of METOC capabilities.

    Military Department Responsibilities. The Navy and the Air Force provide
    METOC support for Service-specific and joint operations through three-tier
    organizational structures. The Navy and the Air Force are the primary
    providers of METOC support for DoD and U.S. national programs. In
    addition, the Navy and the Air Force also provide METOC support to other
    Federal agencies and international partners.

            Army. The Deputy Chief of Staff for Intelligence is responsible for
    establishing METOC support policy. The Deputy Chief of Staff for Operations
    and Plans is responsible for identifying and approving meteorological
    requirements related to data collection and forecasting; however, the Air Force
    Director of Weather is responsible for determining how best to meet those
    requirements. Public Law 253, “National Security Act of 1947,” chapter 343,
    July 26, 1947, assigns the Air Force responsibility for providing METOC
    support for Army operations. Pursuant to the implementation of the National
    Security Act of 1947, inter-Service agreements require the Air Force to provide
    personnel and resources to meet most of the Army’s weather requirements.

            Navy. The Oceanographer of the Navy is the resource and program
    sponsor for Navy and Marine Corps METOC activities. The Navy primarily
    provides METOC services through a three-tier organizational structure
    corresponding to the three levels of military operations: strategic, operational,
    and tactical. The Fleet Numerical Meteorology and Oceanography
    Center (FNMOC) at Monterey, California, is the principal DoD operational
    processing center for automated global METOC analyses and predictions.
    FNMOC provides the official DoD global NWP1 model—the Navy Operational
    Global Atmospheric Prediction System2—and regional models through Navy and
    joint command, control, communications, computers, and intelligence (C4I)
    systems needed to support Navy, Marine Corps, and joint operations abroad or
    in the continental United States.


    1
     NWP is the science of using computers to produce three-dimensional depictions of future
    atmospheric conditions by solving sets of equations that define how the atmosphere behaves.
    2
     The Navy Operational Global Atmospheric Prediction System is the back-up global NWP model
    for the National Weather Service and the only DoD global model.



                                              1
        Air Force. The Air Force Director of Weather is the resource and
program sponsor for Air Force METOC activities. In addition, the Air Force
Director of Weather is responsible for coordinating with the Army any
operational METOC support and policies related to, or potentially impacting,
the Army. The Air Force primarily provides METOC services through a
three-tier organizational structure to support the three levels of military
operations: strategic, operational, and tactical. The Air Force Weather Agency
(AFWA) at Offutt Air Force Base, Nebraska, is the principal strategic center in
Air Force Weather. AFWA produces global-scale METOC products and
centralized space weather products and services needed to support Army, Air
Force, and joint operations. AFWA is responsible for DoD satellite processing;
providing regional, theater-scale NWP models and upper-air analyses; providing
global visualization products from real-time meteorological databases; and
developing and acquiring METOC equipment to meet Army, Air Force, and
DoD operational requirements for forces abroad or in the continental United
States. In addition, AFWA is responsible for providing all space weather
forecasts and analyses that are used by DoD forces to support Service-specific
and joint operations.

DoD Joint Technical Architecture. The DoD Joint Technical Architecture,
“Joint Interoperability and Warrior Support” (version 4.0), April 2, 2001 (Joint
Architecture), provides a minimum set of standards that, when implemented,
facilitates the flow of information in support of the warfighter. The Joint
Architecture includes content, commonality, format, information processing,
information transfer, and security standards. The Joint Architecture:

         •   provides the foundation for interoperability3 among all tactical,
             strategic, and combat systems at the technical architecture level;

         •   mandates interoperability standards and guidelines for system
             development and acquisition that will facilitate interoperability during
             joint operations; and

         •   communicates to industry the DoD intent to consider open system4
             products and implementation.
The Joint Architecture is required for managing, developing, and acquiring new
or improved systems within DoD. In addition, the Joint Architecture is critical
to achieving a cost-effective, seamlessly integrated environment that provides
interoperability between the Services and across current and future systems.
3
 DoD Directive 4630.5, “Compatibility, Interoperability, and Integration of Command, Control,
Communications, and Intelligence Systems,” November 12, 1992, defines interoperability as the
ability of systems, units, or forces to provide services to and accept services from other systems,
units, or forces, and to use the services so exchanged to enable them to operate effectively
together. Interoperability is achieved between systems when information or services are
exchanged directly and satisfactorily between the system and users. (The Directive was replaced
by DoD Directive 4630.5, “Interoperability and Supportability of Information Technology (IT)
and National Security Systems (NSS),” January 11, 2002.)
4
 An open system is a system that implements sufficient open standards for interfaces, services,
and supporting formats to enable properly engineered components to be used across a
wide-range of systems with minimal changes; to interoperate with other components on local
and remote systems; and to interact with users in a style that facilitates portability.



                                            2
Objectives
     This report is the last in a series evaluating the effectiveness and efficiency of
     DoD METOC support provided by the Military Departments to DoD and other
     governmental agencies. The overall objective of this self-initiated series of
     audits was to evaluate DoD METOC services and support to determine whether
     the Military Departments were providing the most cost-effective and
     nonduplicative METOC support to DoD and other governmental agencies.
     Specifically, we evaluated METOC services and support provided by Navy and
     Air Force regional centers in the continental United States. In addition, we
     evaluated Navy and Air Force NWP models and the feasibility of jointly
     developing METOC acquisition category III and below programs. We also
     evaluated the management control program as it related to the specific audit
     objectives. See Appendix A for a discussion of the audit scope and
     methodology, our review of the management control program, and prior
     coverage.



Support Initiatives
     We evaluated METOC services and support provided by Navy and Air Force
     regional support centers in the continental United States and determined the
     Navy and the Air Force were not providing overlapping METOC services and
     support. The Navy provides operational METOC support for the Atlantic and
     Pacific Fleets and joint operations from regional centers in the continental
     United States. The Air Force provides operational METOC support for Army
     and Air Force units assigned to the Air Mobility Command at Scott Air Force
     Base, Illinois; the 8th Air Force at Barksdale Air Force Base, Louisiana; the
     12th Air Force at Davis-Monthan Air Force Base, Arizona; and the 9th Air
     Force at Shaw Air Force Base, South Carolina, from regional centers in the
     continental United States. In addition, we evaluated changes to the Air Force
     Weather training philosophy that were implemented to improve the quality and
     quantity of Air Force Weather forecasters. By combining the development of
     forecasting skills with actual operational support, the reengineered Air Force
     training concept improved the quality of Air Force Weather forecasts. See
     Appendix B for a discussion of our review of Service-specific METOC support
     from the continental United States and the Air Force Weather reengineered
     training program.

     We reviewed an Energy Conservation Forecast Program developed by the Naval
     Atlantic Meteorology and Oceanography Center in Norfolk, Virginia. The
     Energy Conservation Forecast Program was designed to provide long-range
     forecasts to participating military bases with seasonal energy needs to decrease
     energy use and aid energy buyers in making fuel purchases. As of August
     2001, the Naval Atlantic Meteorology and Oceanography Center had a
     documented reduction of more than $66 million in fuel and energy costs through
     the program since 1983. See Appendix C for a discussion of our review of the
     Energy Conservation Forecast Program.



                                          3
             A. Joint Mesoscale Modeling
             The Navy and the Air Force use different Service-specific5 mesoscale6
             NWP models despite the ability of those models to forecast similar
             atmospheric conditions. In addition, the Navy and the Air Force are in
             the process of separately developing next-generation mesoscale NWP
             models rather than developing a standard DoD mesoscale model. The
             lack of coordination occurred because the Navy and the Air Force did
             not:

                       •    fully implement the January 13, 1993, Oceanographer of the
                            Navy and Air Force Director of Weather memorandum of
                            agreement, “Navy–Air Force Cooperation Implementation
                            Action Memorandum” (NAVAF Agreement), initiative to
                            “Implement Joint Theater Forecast Consistency”;

                       •    develop a mutually agreed-upon continuity of operations plan
                            that includes classified and foreign operations; and

                       •    follow standards to facilitate interoperability and systems7
                            integration as defined in the Joint Architecture.

             In addition, Joint Publication 3-59, “Joint Doctrine, Tactics, Techniques,
             and Procedures for Meteorological and Oceanographic Operations,”
             December 22, 1993 (updated March 23, 1999), does not specifically
             identify joint modeling when addressing a joint concept of operations for
             providing METOC support during military operations. As a result,
             FNMOC and AFWA were not capable of providing adequate and
             uninterrupted backup for each other, including NWP support, should one
             center be unable to meet its operational requirements.



Service-Specific Mesoscale Modeling
     The Navy and the Air Force use different Service-specific mesoscale NWP
     models despite the ability of those models to forecast similar atmospheric
     conditions. See Appendix D for a list of atmospheric conditions predicted by
     both the Navy and Air Force mesoscale NWP models.


     5
      Service-specific does not delineate exclusive use by Navy or Air Force; however, within DoD,
     primary use of the Coupled Ocean/Atmosphere Mesoscale Prediction System is by the Navy and
     primary use of the Mesoscale Model Version 5 is by the Air Force.
     6
      Mesoscale refers to the size of weather systems smaller than synoptic-scale systems but larger
     than storm-scale systems. Horizontal dimensions generally range from around 50 kilometers to
     several hundred kilometers across.
     7
      A system is an integrated composite of people, products, and processes that provides a
     capability or meets a stated need or objective.



                                                4
Navy Mesoscale Modeling. FNMOC provides a high-resolution, real-time
mesoscale model that is capable of simulating changes in atmospheric conditions
that could affect DoD air, land, and sea operations and weapon systems. The
Coupled Ocean/Atmosphere Mesoscale Prediction System (COAMPS) was
developed as a replacement model for the Navy Operational Regional Prediction
System8 in 1998 by the Marine Meteorology Division of the Naval Research
Laboratory9 in Monterey, California, to meet an increased need for tactical
METOC analyses and forecast products in coastal regions because of the
interaction of the atmosphere, the underlying ocean, and nearby land.
COAMPS was also needed because the Navy Operational Global Atmospheric
Prediction System and conventional METOC observing systems did not provide
adequate spatial10 and temporal11 resolution to thoroughly process conditions that
were actually occurring in or near shore regions. FNMOC uses lateral
boundary conditions established by the Navy Operational Global Atmospheric
Prediction System output and observations from aircraft, remote sensors, ships,
and satellites to generate short-term forecasts (up to 72 hours) for any given
region of the earth.

COAMPS is an operational mesoscale NWP model featuring:

            •   nested,12 hydrostatic13 and non-hydrostatic physics;
            •   explicit moisture physics, including cloud formation and turbulence
                prediction;

            •   sea-surface temperature analysis and prediction;

            •   a coupled ocean and atmosphere integration that describes moisture,
                heat, and momentum exchanges between the air and sea;

            •   the ability to forecast embedded aerosols, including dust and smoke,
                affecting military operations involving electro-optical propagation;
                and




8
 The Navy Operational Regional Atmospheric Prediction System was developed in 1983 and
used operationally by FNMOC until 1998 when COAMPS testing was complete.
9
 The Marine Meteorology Division, Naval Research Laboratory is the only DoD NWP research
facility, and the only Navy laboratory, dedicated entirely to meteorological research.
10
     Spatial refers to the distance between model grid points.
11
     Temporal refers to the frequency at which model solutions are calculated.
12
  COAMPS uses multiple nested grids to represent the evolution of environmental conditions
over progressively smaller regions of the world with progressively higher spatial resolution
requirements.
13
  Hydrostatic is defined as the state of a fluid whose surfaces of constant pressure and constant
mass (or density) coincide and are horizontal throughout. Complete balance exists between the
force of gravity and the pressure force.



                                               5
            •   improved data assimilation, including an automated data quality
                control, a complete data analysis scheme to provide boundary
                conditions, an initialization procedure to provide higher quality initial
                conditions for the forecast, and a prediction system, through a
                state-of-the-art, three-dimensional variation method.

The Navy uses data from COAMPS to forecast conditions affected by coastal
rains, frontal systems, land–sea breezes, terrain-induced winds, and tropical
cyclones. FNMOC generally runs the Navy Operational Global Atmospheric
Prediction System (81 km resolution) and a COAMPS nested grid (27 km
resolution) to support Navy and joint littoral14 operations (see Appendix E). In
addition, FNMOC runs two levels (27 and 9 km resolution) of COAMPS nested
grids simultaneously with the Navy Operational Global Atmospheric Prediction
System for regions that the Navy considers “high interest” areas. However, if
necessary, COAMPS is capable of producing an even finer scale (1 km
resolution) nested grid. The Defense Threat Reduction Agency used the finer
scale COAMPS model to monitor and predict hazardous dispersion of
biological, chemical, and nuclear weapons. Recent advances in remote sensing,
data assimilation, and computing capabilities are allowing FNMOC and the
Marine Meteorology Division, Naval Research Laboratory to develop a more
consistent, full-physics model capable of fully integrating atmosphere and ocean
conditions.

COAMPS provides the high-resolution, globally relocatable, and integrated
METOC prediction capability needed to provide seamless METOC support for
Navy, Marine Corps, and joint operations. However, the Superintendent,
Marine Meteorology Division, Naval Research Laboratory stated that because of
rapid advances in science and technology, the Navy planned to support and use
COAMPS only for approximately 10 more years. As a result, FNMOC and the
Marine Meteorology Division, Naval Research Laboratory, through research
and operational testing, are continuously working to implement improvements to
COAMPS and to develop an advanced, next-generation mesoscale NWP model
that can replace COAMPS by FY 2011.

Air Force Mesoscale Modeling. AFWA provides a high-resolution, real-time
mesoscale NWP model that is capable of simulating changes in atmospheric
conditions that could affect Army, Air Force, and DoD air, land, and sea
operations and weapon systems. In 1974, the weather community—specifically,
the Pennsylvania State University and the National Center for Atmospheric
Research—cooperatively developed the original version of Mesoscale Model
Version 5 (MM5) to meet an increased need for tactical METOC analyses and
forecasts. By 1997, AFWA began using the MM5 as a replacement for the
Relocatable Window Model. MM5 was designed primarily for research
purposes and, through continuous improvements by universities and
Government organizations, including AFWA, the original version of MM5 was
expanded to include:

            •   multiple nested grids and global relocation capabilities,


14
     Littoral regions include the area on or near the shore of a body of water.



                                               6
        •    hydrostatic and non-hydrostatic physics that allow global- and
             target-scalability of the model,

        •    explicit moisture physics, including cloud formation and
             precipitation,

        •    multitasking capability on shared- and distributed-memory machines,
             and

        •    four-dimensional data-assimilation capabilities.

MM5 uses routine observations, including relative humidity, sea-level pressure,
sea-surface temperature, temperature, upper-air and surface reports, and wind
direction and speed, to provide variable resolution models needed to support
Army and Air Force operations. AFWA generally runs three levels (45, 15,
and 5 km resolution) of MM5 nested grids simultaneously to support air and
land operations (see Appendix E). However, AFWA is also capable of
producing an even finer scale (approximately 1 km resolution) nested grid when
required to support a specific mission. Through continuous improvements,
MM5 not only has become an advanced NWP model used for research
purposes, but also has become vital to meeting Army and Air Force operational
forecasting requirements around the world.

MM5 provides the high-resolution and globally relocatable METOC prediction
capability needed to provide seamless METOC support for Army, Air Force,
and joint operations. However, AFWA personnel stated that because of rapid
advances in science and technology, the Air Force planned to support and use
MM5 only for approximately 3 more years. During the FY 2000 overall Air
Force budget program review, the Air Force Research Laboratory at Hanscom
Air Force Base, Massachusetts, did not support atmospheric weather science
and technology funding because the Air Force major commands did not identify
atmospheric weather research and development as a high priority. As a result,
the Air Force Research Laboratory did not receive science and technology
funding to support Air Force Weather requirements for atmospheric weather
research and development during FY 2001 and was uncertain as to whether
atmospheric weather research and development funding would be restored.
With a need to leverage other mesoscale modeling research and development
efforts, AFWA partnered with the National Center for Atmospheric Research,
the National Oceanic and Atmospheric Administration, and a number of
collaborating institutions and university scientists to develop a next-generation
mesoscale NWP model, the Weather Research and Forecast model,15 to replace
MM5 by FY 2004.




15
  The Weather Research and Forecast model is a development effort jointly undertaken to
advance the understanding and prediction of METOC conditions and promote closer ties
between operations and research. The Weather Research and Forecast model effort includes
reengineering the underlying software architecture to produce a modular, flexible code designed
from the outset to provide portable performance across diverse computing architectures.



                                          7
Next-Generation Mesoscale Modeling
     The Navy and the Air Force are in the process of separately developing
     next-generation mesoscale NWP models rather than developing a standard DoD
     mesoscale model.

     As of January 2002, the Navy and the Air Force were in the process of
     improving current mesoscale NWP models and developing next-generation
     mesoscale NWP models; however, neither Service was working with the other
     to develop a standard DoD mesoscale NWP model. Although Navy personnel
     stated they were aware of the Weather Research and Forecast model, the
     Superintendent, Marine Meteorology Division, Naval Research Laboratory16
     stated that the Navy did not expect the Weather Research and Forecast model to
     initially exceed the capabilities COAMPS already possessed and was also unsure
     whether the Weather Research and Forecast model would fully integrate
     atmosphere and ocean conditions. As a result, the Superintendent stated, the
     Navy planned to continue implementing upgrades to COAMPS and developing
     an advanced, next-generation mesoscale NWP model.

     To support Service-specific operations, the Navy and the Air Force were
     producing separate mesoscale NWP models that would generally provide
     coverage for overlapping regions of the world. In addition, the Navy and the
     Air Force were investing resources for the development of next-generation
     mesoscale NWP models intended to provide Service-specific support, not
     facilitate joint support.



Navy and Air Force Cooperative Agreement
     The Navy and the Air Force use different mesoscale NWP models and are in the
     process of separately developing next-generation mesoscale NWP models
     because they did not fully implement the NAVAF Agreement initiative to
     “Implement Joint Theater Forecast Consistency.”

     NAVAF Agreement Initiatives. On January 13, 1993, the Oceanographer of
     the Navy and the Air Force Director of Weather signed the NAVAF Agreement
     to evaluate potential areas of cooperation between the Navy and the Air Force
     and to improve meteorological support problems identified during Operation
     Desert Storm. The NAVAF Agreement identifies 19 initiatives, including
     designating a single global model to be used as the DoD global NWP model of
     choice and consolidating Service-specific mesoscale models. Of the
     19 initiatives, 16 were accepted for implementation, 2 were rejected, and 1 was
     returned for further investigation. As of January 2002, only eight initiatives had
     been completed.

    16
     The Superintendent, Marine Meteorology Division, Naval Research Laboratory and other Naval
     Research Laboratory scientists are members of the Weather Research and Forecast Model
     Oversight and Science Board. The board is responsible for budgetary issues, technical
     evaluations, and the overall progress of the Weather Research and Forecast model.



                                             8
         Designated DoD Global NWP Model. The NAVAF Agreement
identifies that a single global NWP model should be used to provide the basis
for all DoD forecasts. The NAVAF Agreement recommended that the Navy
and the Air Force transition to the Navy Operational Global Atmospheric
Prediction System as the DoD standard. The Navy and the Air Force accepted
the initiative and, as a result, FNMOC is responsible for producing the official
DoD global NWP model. The Navy Operational Global Atmospheric
Prediction System ingests classified sources of data observations that are not
available to other global NWP models. However, AFWA personnel stated they
were not using the Navy Operational Global Atmospheric Prediction System to
initiate MM5. Instead, AFWA generally used the National Weather Service
global NWP model (Aviation Model) because the National Weather Service was
able to provide that global model more frequently (four times a day) than
FNMOC (two times a day) and with a higher vertical resolution. As of
January 2002, the Navy was in the process of converting the NWP modeling
system at FNMOC from a Cray supercomputer to a Silicon Graphics,
Incorporated, Origin 3800 multiprocessor server. As a result of the conversion,
FNMOC expected to be able to provide the Navy Operational Global
Atmospheric Prediction System to AFWA with a higher vertical resolution and
four times a day.

        Joint Forecast Consistency. The NAVAF Agreement identifies that the
Navy and the Air Force should evaluate the types of data and the products
required by theater forecasters and determine where those products should be
produced. The NAVAF Agreement recommended that the Navy and the Air
Force consolidate Service-specific NWP models and provide higher resolution
products to ensure they meet the “one theater, one forecast” concept.
Recipients of Service-unique NWP models frequently do not have access to, or
use, the other Services’ NWP models. As a result, Navy and Air Force
forecasters may not be effectively and efficiently using other Service models
because of unfamiliarity with the NWP model’s characteristics and tendencies.
Although the Navy and the Air Force accepted the initiative, as of
January 2002, FNMOC and AFWA continued to produce separate,
Service-specific NWP models rather than using a standard DoD model.

The NAVAF Agreement was designed to provide a framework for a long-term
cooperative effort with the goal of identifying ways in which the Navy and the
Air Force could provide METOC support with greater efficiency and
effectiveness. In a January 16, 2001, memorandum from the Air Force
Director of Weather to the Oceanographer of the Navy, “Mutual Objectives in
Weather Modeling,” the Air Force states that in the spirit of the NAVAF
Agreement to improve joint METOC support to the warfighter, the Navy and
the Air Force should integrate separate NWP mesoscale models into a single,
coupled model that includes atmosphere, ocean, and surface conditions. As of
January 2002, the Navy and the Air Force were coordinating that effort and also
were planning to address the other accepted NAVAF Agreement initiatives that
had not yet been completed.

Establishing a Joint NWP Modeling Center. The Commanding Officer,
FNMOC supports a concept paper developed by the staff of the Oceanographer
of the Navy, “Establishing a Joint Numerical Weather Prediction Modeling



                                   9
Center,” in which the Navy outlines a proposal to position the DoD METOC
modeling community to take advantage of technological advances and achieve
the Joint Vision 202017 goal of information superiority.18
The Navy concept paper also states that with steady budgets and current
technology trends, the DoD METOC community should examine the
establishment of a joint NWP modeling center and possibly alter some of its
organizational and operational concepts. The Navy also states that readiness
training will rely on more realistic modeling and simulation efforts of the
battlespace environment. For example, DoD and other Federal agencies will be
required to rely on more accurate dispersion predictions because of other
countries’ access to weapons of mass destruction. The concept paper identifies
four potential options to provide a single, comprehensive, and coherent
representation of the battlespace environment during joint operations and
ensures METOC support functions meet the goals of Joint Vision 2020. The
Commanding Officer, FNMOC stated that the options identified in the concept
paper enhance Navy and Air Force METOC support to the warfighter by
providing DoD more ways to consolidate resources and efficiently meet
operational requirements.

The Air Force did not agree with or support all the concepts stated in the Navy
paper on joint METOC modeling. The Commander, AFWA provided a list of
end-state characteristics that should be considered prior to establishing a joint
modeling center, including:

        •    ensuring joint warfighter needs are met while also ensuring the
             Services are capable of responding to Service-specific operations,

        •    presenting a logical business decision, both for the end-state and for
             the cost to achieve the end-state,

        •    facilitating a unified and consistent forecast for joint operations, and

        •    exploiting Service-unique METOC capabilities and resources.

However, the Commander, AFWA stated that although joint NWP modeling
could be beneficial to providing METOC support for DoD operations, the costs
associated with designating a joint NWP modeling center would probably exceed
the benefits derived from consolidating NWP modeling responsibilities of
FNMOC and AFWA. In addition, the Commander, AFWA stated that by
consolidating the separate NWP responsibilities, the Services could potentially
inhibit their ability to meet operational requirements.

Other Correspondence on Mesoscale NWP Modeling. In a memorandum
from the Oceanographer of the Navy to the Air Force Director of Weather,
17
  Joint Vision 2020 is a conceptual template for how America’s military forces will channel the
vitality and innovation of their people, and leverage technological opportunities to achieve new
levels of effectiveness in joint warfighting.
18
 Information superiority includes the capability to collect, process, and disseminate an
uninterrupted flow of information while exploiting or denying an adversary’s ability to do the
same.



                                           10
“Navy–Air Force Cooperation: Numerical Prediction,” June 5, 1995, the
Oceanographer of the Navy states that according to a NAVAF Agreement
briefing on December 17, 1993, the Navy and the Air Force approved a
regional and theater modeling roadmap that identified COAMPS (then the Navy
Operational Regional Atmospheric Prediction System) as the designated DoD
mesoscale model. The memorandum also states that the Air Force agreed to use
COAMPS, in conjunction with the Air Force Interim Cloud Forecast model, to
develop theater forecasts until the Air Force Global Theater Weather Analysis
and Prediction Systems was fully operational.19 When fully operational, the Air
Force Global Theater Weather Analysis and Prediction System would use
COAMPS to initiate forecasts, including aerosol, cloud, and visibility forecasts.

In response to the June 5, 1995, memorandum, the Air Force Director of
Weather replied in a memorandum, “Navy–Air Force Cooperation: Numerical
Prediction,” July 24, 1995, that although the Air Force was committed to using
the best available model for supporting theater operations, the Air Force
determined it would cost approximately $3 million to integrate COAMPS fields
into the existing Air Force Weather architecture. The memorandum also states
that unless the Navy was able to provide additional funding to integrate
COAMPS, the Air Force would be unable to follow the agreed-upon theater and
operational roadmap.

The Oceanographer of the Navy responded to the July 24, 1995, Air Force
memorandum on December 15, 1995, stating that although funding was required
to integrate COAMPS fields into the existing Air Force Weather architecture,
the approved theater and operational modeling roadmap indicates that after an
initial investment of $4.12 million, the Air Force, in subsequent years, could
expect to avoid approximately $8.5 million in operational costs. As of January
2002, AFWA had not integrated COAMPS fields into the Air Force Weather
architecture and, as a result, had not been able to realize any of the $8.5 million
in expected cost avoidance.

The Navy and the Air Force use of Service-specific mesoscale NWP models
does not facilitate the ability to provide consistent METOC forecasts during
joint operations nor does it support the “one theater, one forecast” concept
identified in Joint Publication 3-59. Although nothing precludes having separate
mesoscale NWP models, separate models could impede progress toward
consistent and efficient METOC support. Separate NWP models may result in
different assessments of METOC conditions, preparations for conditions, or
operational “go, no go” decisions. Therefore, the Navy and the Air Force
should implement the NAVAF Agreement initiative to “Implement Joint Theater
Forecast Consistency” by consolidating their separate mesoscale NWP models
and develop a standard next-generation DoD mesoscale NWP model.




19
  The Global Theater Weather Analysis and Prediction System is an Air Force-unique system
that was designed to improve the accuracy of forecasts in addition to improving spatial and
temporal resolution for global and theater forecasts by incorporating modern NWP models.



                                         11
Continuity of METOC Operations
    The Navy and the Air Force are in the process of separately developing
    next-generation mesoscale NWP models because they did not develop a
    mutually agreed-upon continuity of operations plan.

    METOC Back-Up Capabilities. FNMOC and AFWA were not capable of
    providing adequate and uninterrupted backup for each other should one center
    be unable to meet its operational requirements.

            METOC Infrastructure at FNMOC and AFWA. FNMOC and
    AFWA computer infrastructures were Service-specific and could not easily
    process the other center’s mesoscale NWP model without extensive changes to
    their existing hardware and software. As of October 29, 2001, FNMOC had
    achieved final operational capability on the Silicon Graphics, Incorporated,
    Origin 3800 computing system to run the Navy Operational Global Atmospheric
    Prediction System, COAMPS, and other required models. By FY 2005,
    FNMOC will have a sustained execution capability of 400 gigaFlops.20 In
    comparison, the International Business Machine Scalable Power Parallel system
    at AFWA allows a sustained execution capability of 625 gigaFlops. However,
    the Silicon Graphics, Incorporated, Origin 3800 computing system allows
    FNMOC to process classified and unclassified METOC data concurrently,
    whereas the International Business Machine Scalable Power Parallel system at
    AFWA is only capable of processing unclassified METOC data. FNMOC and
    AFWA also use different methods for storing METOC data.

            METOC Products Provided by FNMOC and AFWA. FNMOC and
    AFWA produce different METOC products to support Service-specific and joint
    requirements. FNMOC produces a global and a mesoscale NWP model and
    various specialized models, including the Geophysical Fluid Dynamics
    Laboratory Tropical Cyclone Model, the Optimum Thermal Interpolation
    System, and the Wave Action Model, to support Navy and joint requirements
    for accurate and timely METOC forecasts. The mesoscale NWP model used by
    FNMOC not only predicts changes in the atmosphere, but also predicts changes
    in the ocean. AFWA also produces a mesoscale NWP model and various
    specialized models, including a snow analysis, a real-time cloud analysis, and a
    land-surface model, to support Army, Air Force, and joint requirements for
    accurate and timely METOC forecasts. Although FNMOC and AFWA provide
    unique METOC support for certain classified operations, neither center is
    currently able to provide support to all classified operations supported by the
    other center.

    METOC Back-Up Support Agreements. FNMOC and AFWA each have
    memorandums of agreement in place with Federal agencies to provide reciprocal
    backup for specific functions or NWP models; however, neither FNMOC nor
    AFWA have viable procedures in place to ensure each center could provide


    20
     A gigaFlop is a measurement for rating the speed of microprocessors and is equal to one
    billion floating-point operations per second.



                                             12
    uninterrupted METOC support to DoD. Joint Publication 3-59 states that the
    Military Departments must maintain a state of immediate responsiveness to joint
    operations by:

           •   identifying training techniques that allow for a seamless transition to
               joint operations,

           •   maintaining communication equipment interoperability, and

           •   planning and maintaining standardized and interoperable equipment.

    Although Joint Publication 3-59 identifies FNMOC and AFWA as critical
    components for the success of joint operations, it does not address operational
    back-up capabilities should FNMOC or AFWA be unable to meet its operational
    requirements. Because the Navy and the Air Force have adopted the “train as
    you’re going to fight” methodology, FNMOC and AFWA should have an
    operationally viable and tested continuity of operations plan in place to ensure
    they can provide METOC support to DoD forces abroad during peacetime and
    wartime operations.



Meeting Joint Architecture Requirements
    The Navy and the Air Force use different mesoscale NWP models because they
    did not follow standards to facilitate interoperability and systems integration as
    defined in the Joint Architecture.

    Need for a Joint Architecture. In October 1995, the Deputy Secretary of
    Defense directed a DoD-wide effort to define and develop a better means and
    process for ensuring that C4I capabilities meet warfighter requirements. As a
    result, the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) issued a memorandum on November 14,
    1995, requiring the Services and other command authorities to develop a set of
    working standards and establish a single, unifying DoD technical architecture
    that would ensure all future DoD C4I acquisitions were joint and interoperable
    from their inception and give existing systems a baseline to move toward
    interoperability.

    Implementation of the Joint Architecture. On August 22, 1996, the Under
    Secretary of Defense for Acquisition, Technology, and Logistics (then the
    Under Secretary of Defense for Acquisition and Technology) and the Assistant
    Secretary of Defense (Command, Control, Communications, and Intelligence)
    issued a memorandum, “Implementation of the DoD Technical Architecture,”
    requiring that DoD Components implement the initial version of the Joint
    Architecture, version 1.0. In addition, DoD Components were required to use
    the Joint Architecture as the basis for all emerging C4I systems, system
    upgrades, and system interfaces and to migrate existing C4I systems to the
    applicable Joint Architecture standards, while considering cost, schedule, and
    performance impacts.



                                        13
In May 1998, the offices of the Under Secretary of Defense for Acquisition,
Technology, and Logistics; the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence); and the Director for Command,
Control, Communications, and Computers, Joint Staff agreed to expand the
Joint Architecture to include emerging technologies, and, as a result, issued a
memorandum, “DoD Joint Technical Architecture Version 2.0,” November 30,
1998, that required the Joint Architecture be used for not only C4I-related
systems, but all systems that exchange information electronically, that cross
functional or DoD Component boundaries, or that give the warfighter
operational capability.

C4I-Related Systems. The Joint Architecture was designed to provide a
foundation for interoperability and to promote applications and data that were
independent of their hardware in order to achieve interoperability and systems
integration for all C4I-related systems. Because the infrastructures at FNMOC
and AFWA use C4I-related systems for NWP modeling, they are required to
conform to the minimum standards for interoperability and systems integration
identified in the Joint Architecture. In addition, METOC support provides an
operational capability to the warfighter; therefore, the computer systems that
develop NWP models should conform to the Joint Architecture. The Joint
Architecture not only identifies minimum standards necessary for
interoperability and systems integration, but also identifies additional standards
needed for specific groups (domains) of DoD systems. The C4I, Surveillance,
and Reconnaissance Domain consists of integrated systems related to doctrine,
procedures, organizational structure, equipment, facilities, and communications.
We believe METOC functions are inherent to the C4I, Surveillance, and
Reconnaissance Domain because METOC support involves collecting,
processing, integrating, analyzing, evaluating, and interpreting data. The C4I,
Surveillance, and Reconnaissance Domain requires common information
modeling and information exchange standards;21 information processing
standards;22 information security standards;23 information transfer standards;24
and human-computer interface standards.25 In an effort to facilitate
interoperability, FNMOC and AFWA developed a common technical
architecture framework26 that addressed information exchange standards.
However, FNMOC and AFWA did not incorporate the other C4I, Surveillance,
and Reconnaissance Domain standards in their technical architecture framework.

21
 Information modeling and information exchange standards include the use of standardized
activity and data models, data definitions, and formatted messages.
22
 Information processing standards include the use of standardized interfaces for application
hardware and software and data formats and instruction-processing specifications required to
manipulate data.
23
  Information security standards include the use of standardized security interfaces for systems
that exchange, model, process, or transport information.
24
 Information transfer standards include the use of standardized interfaces for end-systems,
networks, system management, and transmission media.
25
 Human-computer interface standards include the use standardized user interfaces, style guides,
and symbols.
26
  A technical architecture framework provides a set of rules governing the arrangement,
interaction, and interdependence of system parts or elements. The purpose of the rules is to
ensure that a conformant system satisfies a specified set of requirements.



                                           14
    The lessons learned from conflicts, including Operation Desert Storm, resulted
    in the Chairman of the Joint Chiefs of Staff establishing goals for new levels of
    effectiveness in joint warfighting in Joint Vision 2010 and Joint Vision 2020.
    The Joint Architecture is crucial to achieving the goals of Joint Vision 2020
    because it provides DoD systems with the basis for seamless interoperability at
    the technical architecture level. Although FNMOC and AFWA developed a
    common technical architecture framework, it only contained information
    exchange standards. By expanding the existing technical architecture
    framework between FNMOC and AFWA to include not only information
    exchange standards, but all C4I, Surveillance, and Reconnaissance Domain
    standards, the Navy and the Air Force would meet the intent of the guidance
    identified in the Joint Architecture for promoting interoperability, portability,27
    and systems integration. In addition, the expanded technical architecture
    framework between FNMOC and AFWA could help facilitate continuity of
    operations between the two centers.



METOC Concept of Operations
    The Navy and the Air Force use different mesoscale NWP models and are in the
    process of separately developing next-generation mesoscale NWP models
    because Joint Publication 3-59 does not specifically identify joint modeling when
    addressing a joint concept of operations for providing METOC support during
    military operations.

    Joint METOC Guidance. Joint Publication 3-59 assigns roles and
    responsibilities to the Services for providing effective and efficient METOC
    support during joint operations. The Chairman of the Joint Chiefs of Staff
    developed Joint Publication 3-59 to prescribe doctrine and procedures for
    providing accurate, reliable, and timely METOC support during military
    operations. In addition, Joint Publication 3-59 requires the Services to
    collaborate and coordinate METOC services to ensure they support a “one
    theater, one forecast” concept. Although mesoscale NWP modeling is a critical
    element to providing METOC support for Service-specific and joint operations,
    modeling is not addressed in the joint guidance.

    Navy METOC Concept of Operations. The Navy developed a
    Service-specific concept of operations for providing METOC services that was
    designed to support the joint tactics, techniques, and procedures identified in
    Joint Publication 3-59. Naval Meteorology and Oceanography Command
    “Concept of Operations,” October 22, 1996, identifies a fundamental Navy
    METOC support concept: ensure customer needs are met by providing the right
    information to the right people at the right time. The concept of operations
    defines roles and responsibilities for strategic, operational, and tactical METOC
    support. As a strategic center, FNMOC provides comprehensive forecasts and
    various global and regional METOC products to regional and tactical METOC

    27
      Portability is defined as the ease with which a body of data, component, or system can be
    transferred from one hardware or software environment to another.



                                              15
organizations to use as a baseline for developing tailored products to meet
warfighter requirements for specific missions and weapon systems. As of
January 2002, the Navy was in the process of updating its METOC concept of
operations. The updated concept of operations will be developed to meet the
expected operational architecture described under the Navy’s anticipated
“network-centric operational concept”28 and to ensure all Navy METOC
providers are knowledgeable in the Navy’s five closely related disciplines:
astrometry, hydrography, meteorology, oceanography, and precise time.

Air Force METOC Concept of Operations. The Air Force developed a
Service-specific concept of operations for providing METOC services that was
designed to support the joint tactics, techniques, and procedures identified in
Joint Publication 3-59. U.S. Air Force Program Action Directive 97-10,
“Reengineering Actions for Air Force Weather,” December 1, 1997, directs the
end-to-end restructuring of Air Force Weather to integrate Air Force Weather
into joint operations and enable Air Force Weather to provide products and
services that meet specific operator needs. Air Force Instruction 15-128,
“Aerospace Weather Operations—Roles and Responsibilities,”
November 3, 2000, and Air Force Manual 15-129, “Aerospace Weather
Operations—Processes and Procedures,” November 8, 2000, define the Air
Force METOC concept of operations.29 Air Force Instruction 15-128 requires
the Air Force to provide high quality, mission-tailored meteorological and space
weather observations, forecasts, and services to Army, Air Force, and other
Government agencies. As the principal Air Force strategic weather center,
AFWA collects, analyzes, forecasts, and disseminates global METOC products
to regional Air Force operational weather squadrons. Operational weather
squadrons tailor those global METOC products using METOC products
indigenous to the operating area to ensure that they meet minimum operational
requirements identified by Army and Air Force tactical units operating within
the squadron’s assigned area of responsibility. Tactical units (Combat Weather
Teams) use the forecasts generated by the operational weather squadrons to
determine the impact METOC conditions have on specific missions and weapon
systems.

Although Joint Publication 3-59 prescribes joint tactics, techniques, and
procedures, it does not address joint modeling. Because the Navy and the Air
Force developed their Service-specific concepts of operations for providing
METOC support based on the guidance provided in Joint Publication 3-59,
neither Service addressed joint modeling. Because modeling is a critical
element to providing accurate and reliable METOC support, the issue should be
addressed in Joint Publication 3-59 and in the Navy and Air Force METOC
concepts of operations.




28
 A network-centric operational concept is designed to promote rapid access to information,
whether it is environmental, logistical, or tactical, as a warfighting asset or weapon system.
29
 In November 2000, Air Force Instruction 15-128 and Air Force Manual 15-129 replaced
“Concept of Operations for Reengineered Air Force Weather,” April 20, 1998.



                                           16
Uninterrupted METOC Support
    The Navy and the Air Force have reduced assurance that FNMOC and AFWA
    could provide uninterrupted METOC services, including NWP support, should
    one center be unable to meet its operational requirements. On April 17, 2001,
    the Commanding Officer, FNMOC issued a memorandum, “Recent Navy–Air
    Force Meetings,” to the Commander, AFWA, stating that there is a need for a
    formal operational back-up plan between the two NWP modeling centers. The
    memorandum also states that although there are work-arounds in place,
    FNMOC and AFWA are vulnerable because they have no assurance that they
    can provide uninterrupted, quality support to DoD forces should one center not
    be able to meet its requirements. As of January 2002, FNMOC and AFWA had
    not developed a joint continuity of operations plan.



Summary
    Chairman of the Joint Chiefs of Staff Instruction 3810.01A states that the
    Services should ensure commonality in the development of METOC capabilities.
    Because NWP models provide the foundation for forecasting METOC
    conditions that affect military operations, the models provide a critical METOC
    capability. The Navy and the Air Force should jointly develop a
    next-generation standard mesoscale NWP model that is designed to provide
    DoD with a single METOC forecast. A standard DoD mesoscale NWP model
    could increase interoperability, improve overall model accuracy, achieve
    common data transfers, and facilitate operational back-up capabilities between
    FNMOC and AWFA. In addition to developing a standard DoD mesoscale
    NWP model, FNMOC and AFWA should develop and test a continuity of
    operations plan that identifies processes and procedures to ensure DoD receives
    uninterrupted, high quality METOC support should one center not be able to
    meet its operational requirements.




                                      17
Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend the Oceanographer of the Navy and the Air Force
    Director of Weather:

           a. Implement the initiative “Implement Joint Theater Forecast
    Consistency” to ensure the Navy and the Air Force meet the “one theater,
    one forecast” concept by providing consistent and high-resolution mesoscale
    numerical weather prediction support for joint operations.

    Navy Comments. The Deputy Assistant Secretary of the Navy (Environment),
    in coordination with the Oceanographer of the Navy, concurred, stating that the
    Navy should pursue Joint Theater Consistency. The Navy also stated that using
    Internet Relay Chat30 has provided a valuable tool for improving communication
    among theater forecasters as a step toward consistency.

    Air Force Comments. The Deputy Chief of Staff for Air and Space
    Operations, in coordination with the Air Force Director of Weather,
    nonconcurred, stating that the NAVAF Agreement does not require the Navy
    and the Air Force to develop a joint mesoscale model. The Air Force stated that
    the Navy and the Air Force concept of operations at FNMOC and AFWA only
    propose a common regional (theater-scale) model with each Service using a
    higher resolution mesoscale model to support Service-specific missions, not a
    joint mesoscale model. In addition, the Air Force stated that in 1992, they
    envisioned that the regional model would be different than the higher resolution
    mesoscale model. The Air Force also stated that because COAMPS and MM5
    provide lower resolution products, both models are used by the Navy and the
    Air Force to provide regional and mesoscale forecasts that meet Service-specific
    mission requirements. The Air Force also encouraged the Navy to join in the
    Weather Research and Forecast Model.

    Joint Staff Comments. Although not required to comment, the Director, Joint
    Staff disagreed with the recommendation, stating that consolidating separate
    mesoscale NWP models will not ensure that the Services fully promote joint
    METOC support and will not facilitate the Services’ ability to provide consistent
    METOC forecasts during Service-unique or joint forecasts.

    Audit Response. We consider the Navy comments to be partially responsive
    and the Air Force comments to be nonresponsive to the intent of the
    recommendation. Although the Navy concurred with the recommendation,
    actions taken or planned to implement joint theater consistency were not
    addressed. The Air Force stated that the initiative to “Implement Joint Theater
    Forecast Consistency” does not require the Navy and the Air Force to develop a
    joint mesoscale model; however, the initiative requires the Navy and the Air

    30
     Internet Relay Chat is a collaborative tool used by the Navy and the Air Force to discuss
    METOC forecasting issues.



                                              18
Force to evaluate products developed by mesoscale models that are required by
forecasters and determine where those products should be developed to ensure
they aid in providing consistent joint theater forecasts. The intent of the
recommendation was for the Services to optimize attributes from each Service’s
mesoscale model to aid in providing a consistent joint theater forecast. The
Navy and the Air Force can leverage the benefits of each other’s separate
mesoscale NWP models by jointly incorporating the benefits into a single
mesoscale NWP model that would provide consistent joint METOC data used by
forecasters. The Navy has recognized Internet Relay Chat as a valuable tool in
improving communication between Navy and Air Force theater forecasters and
which has resulted in greater theater forecast consistency. However, without
jointly addressing all available options, including a joint mesoscale NWP model
or other tools, such as the Internet Relay Chat, the Air Force cannot effectively
complete the initiative to “Implement Joint Theater Forecast Consistency.” We
request that the Navy and the Air Force provide additional comments detailing
actions taken or planned to implement the “Implement Joint Theater Forecast
Consistency” initiative and provide additional comments in response to the final
report.

      b. Promote joint meteorological and oceanographic support by
cooperatively developing the next-generation standard mesoscale numerical
weather prediction model to replace existing Service-specific models.

Navy Comments. The Deputy Assistant Secretary of the Navy (Environment),
in coordination with the Oceanographer of the Navy, concurred, stating that the
Navy supported the development of a standard next generation mesoscale
model, provided it exceeds the capabilities of COAMPS.

Air Force Comments. The Deputy Chief of Staff for Air and Space
Operations, in coordination with the Air Force Director of Weather, concurred,
stating that the complexity of science and technology for model and analysis
systems has outgrown the single-agency development methodology. The Air
Force stated that AFWA, the National Weather Service, and other organizations
are in the process of developing the Weather Research and Forecast model as
the next-generation mesoscale model.

Joint Staff Comments. Although not required to comment, the Director, Joint
Staff agreed with the recommendation, stating that a consolidated effort by the
Services, coupled with the civilian research METOC communities, should
reduce the inefficiencies associated with single-Service or single-agency model
development.

Audit Response. Although the Navy and the Air Force concurred with the
recommendation, we consider their comments to be partially responsive to the
intent of the recommendation. The Navy and the Air Force comments
recognize the need to cooperatively develop a next-generation standard
mesescale. The Navy will continue to use and enhance COAMPS for mesoscale
modeling until a next-generation mesoscale model is developed that exceeds the
capabilities of COAMPS. The Air Force has chosen to jointly develop the
Weather Research and Forecast model with the National Weather Service.
However, the Navy only participates in the effort to develop the Weather
Research and Forecast model as a member of the program oversight board. The


                                   19
intent of the recommendation was for the Navy and the Air Force to jointly
develop a next-generation mesoscale model that would reduce the inefficiencies
associated with single-Service model development. We request that the Navy
and the Air Force provide details on actions taken or planned to cooperatively
develop a next-generation standard mesoscale NWP model and provide
additional comments in response to the final report.

A.2. We recommend the Commanding Officer, Fleet Numerical
Meteorology and Oceanography Center and the Commander, Air Force
Weather Agency:

       a. Develop a viable continuity of operations plan that identifies
processes and procedures to ensure the Navy and the Air Force are capable
of providing meteorological and oceanographic services, including
numerical weather prediction support, for classified and foreign operations
should one center be unable to meet its operational requirements.

Navy Comments. The Deputy Assistant Secretary of the Navy (Environment),
in coordination with the Oceanographer of the Navy, concurred on developing a
viable continuity of operations plan. In addition, the Navy stated that it is in the
process of testing an operational back-up plan for NWP modeling with the
National Weather Service.

Air Force Comments. The Deputy Chief of Staff for Air and Space
Operations, in coordination with the Air Force Director of Weather,
nonconcurred, stating that although there was room for improvement, an
effective backup occurs today among FNMOC, AFWA, and the National
Weather Service’s National Centers for Environmental Prediction. In addition,
the Air Force stated that migration to a community NWP model would facilitate
greater opportunities for backup among all of the DoD and civilian centers.
However, the primary need is for backup of the METOC data and not the model
itself.

Joint Staff Comments. Although not required to comment, the Director, Joint
Staff disagreed with the recommendation, stating that the Services are
responsible for organizing, training, equipping, and providing METOC forces
and support for Service and joint operations. A Service-unique back-up
capability is inherent to that responsibility. There is no title 10 requirement for
either Service to perform the other’s mission in a back-up role.

Audit Response. We consider the Navy comments to be partially responsive
and the Air Force comments to be nonresponsive to the intent of the
recommendation. Although the Navy concurred with the recommendation,
actions taken or planned to develop a continuity of operations plan between the
Navy and the Air Force were not addressed. Also, the Air Force stated that
effective backup exists between FNMOC, AFWA, and the National Weather
Service. However, a formalized continuity of operations plan does not exist
between and FNMOC and AFWA to ensure uninterrupted METOC support
within DoD. Because FNMOC and AFWA provide unique METOC support for
classified and unclassified DoD operations, an operationally viable and tested
continuity of operations plan should be developed. Also, considering that the
Navy and the Air Force have adopted a “train as you’re going to fight”


                                     20
methodology, the Air Force must assume that the availability of unclassified
data, such as that from the National Weather Service and the National Center
for Environmental Prediction, may be insufficient to support a worldwide DoD
mission. The intent of our recommendation was to have an established
continuity of operations plan in place that addresses each center’s
responsibilities and procedures that would be implemented should a failure at
one of the centers occur. We request that the Navy provide additional
comments detailing actions taken or planned to implement the recommendation.
We request that the Air Force reevaluate its position on developing a viable
continuity of operations plan with the Navy and provide additional comments in
response to the final report.

       b. Include all DoD Joint Technical Architecture Command, Control,
Communications, Computers, Intelligence, Surveillance, and
Reconnaissance Domain standards in their existing technical architecture
framework to promote interoperability and portability, ensure systems
integration, and facilitate continuity of operations between the two
numerical weather prediction centers.

Navy Comments. The Deputy Assistant Secretary of the Navy (Environment),
in coordination with the Oceanographer of the Navy, concurred, stating that the
Navy has renamed the Joint METOC Configuration Control Board to the Joint
METOC Interoperability Improvement Board and has increased the scope of the
Joint METOC Interoperability Improvement Board to address potential
interoperability issues between FNMOC and AFWA.

Air Force Comments. The Deputy Chief of Staff for Air and Space
Operations, in coordination with the Air Force Director of Weather,
nonconcurred, stating that systems that only provide data into C4I, Surveillance,
and Reconnaissance-related systems (the mesoscale modeling systems at
FNMOC and AFWA), but interface with them in no other way, are only
required to conform to the rules of data exchange. The Air Force also stated
that categorizing the modeling systems at FNMOC and AFWA as C4I,
Surveillance, and Reconnaissance-related systems is inappropriate and
misinterprets the intent of the Joint Architecture.

Joint Staff Comments. The Director, Joint Staff agreed with the
recommendation, stating that all efforts to improve interoperability between the
Service METOC communities are welcomed as long as the efforts are consistent
with title 10.

Audit Response. We consider the Navy comments to be partially responsive
and the Air Force comments to be nonresponsive to the intent of the
recommendation. Although the Navy concurred with the recommendation, the
actions taken by the Navy do not address the intent of the recommendation to
improve interoperability between Navy and Air Force METOC communities.
The Air Force stated that FNMOC and AFWA modeling systems are governed
only by data exchange requirements. We believe that METOC functions are
inherent to the C4I, Surveillance, and Reconnaissance Domain because METOC
support involves collecting, processing, integrating, analyzing, evaluating, and
interpreting data. In a memorandum, “DoD Joint Technical Architecture
Version 2.0,” November 30, 1998, the Joint Architecture standards were


                                   21
expanded to include all systems that exchange information electronically, that
cross functional boundaries or DoD Component boundaries, or that give the
warfighter operational capability. METOC support provides an operational
capability to the warfighter; therefore, we believe the computer systems that
develop NWP models should conform to all applicable Joint Architecture
standards and not just the data exchange standard. The intent of the
recommendation was to improve interoperability between Navy and Air Force
METOC communities. We request that the Navy provide additional comments
detailing actions taken or planned that are responsive to the recommendation.
We request that the Air Force reconsider its position and provide additional
comments on the final report.

A.3. We recommend the Chairman of the Joint Chiefs of Staff revise Joint
Publication 3-59, “Joint Doctrine, Tactics, Techniques, and Procedures for
Meteorological and Oceanographic Operations,” March 23, 1999, to include
doctrine that addresses joint modeling in relation to supporting the “one
theater, one forecast” concept.

Joint Staff Comments. The Director, Joint Staff nonconcurred, stating that the
report mistakenly equates mesoscale NWP modeling processes and products
with operational, theater-level forecasts. The Joint Staff stated that the report
erroneously assumes that METOC doctrinal tenant of “one theater, one
forecast” is dependent upon that single component of the forecast process.
Also, the Joint Staff stated that the lack of a joint mesoscale model was not due
to the failure of joint doctrine to identify joint NWP modeling when addressing
a joint concept of operations, as stated in the report.

Navy Comments. The Deputy Assistant Secretary of the Navy (Environment),
in coordination with the Oceanographer of the Navy, agreed, and stated that the
Navy supports the concept of joint modeling.

Air Force Comments. The Deputy Chief of Staff for Air and Space
Operations, in coordination with the Air Force Director of Weather, disagreed
with the recommendation, stating that the report erroneously assumes the
METOC doctrine of “one theater, one forecast” is dependent on data derived
from mesoscale models. Also, the Air Force stated that as NWP models
become more sophisticated and accurate in the future, a more dominate role of
NWP output might be appropriate in Joint Publication 3-59.

Audit Response. We consider the Joint Staff comments to be nonresponsive to
the intent of the recommendation. Although the Joint Staff nonconcurred with
addressing joint modeling in Joint Publication 3-59, the Navy agreed with the
need to address the concept of joint modeling. In addition, the Air Force stated
that as NWP models become more sophisticated and accurate in the future,
addressing joint modeling in Joint Publication 3-59 may be appropriate. A
National Research Council report31 states that the complexity of science and
technology for model and analysis systems has outgrown the single-agency
31
 Source: Board of Atmospheric Sciences and Climate, Commission on Geosciences,
Environment, and Resources, National Research Council, “From Research to Operations in
Weather Satellites and Numerical Weather Prediction—Crossing the Valley of Death”
(Washington, D.C.: National Academy Press, 2000).



                                       22
development methodology. The report states that no single agency is capable of
internally developing upgrades required to continue improving models at the
current pace and that each agency should identify resources necessary to ensure
active collaboration in research and development. We realize that NWP
modeling is one element used in the process to develop a forecast. However,
because the Navy and the Air Force agreed with the need to jointly develop a
next-generation mesoscale NWP model, we believe that joint modeling should
be addressed in Joint Publication 3-59 because it is a critical element to
providing accurate and reliable METOC support. The Navy and the Air Force
developed their Service-specific concepts of operations for providing METOC
support based on guidance provided in Joint Publication 3-59. The intent of the
recommendation was to address the need for joint modeling to support DoD
operations in Joint Publication 3-59, not to restrict how joint METOC support is
provided. We continue to believe it would be beneficial to DoD if the Joint
Staff would address joint modeling in its concept of operations for providing
joint METOC support. We request that the Joint Staff reconsider its position
and provide additional comments on the final report.

A.4. We recommend the Commander, Naval Meteorology and
Oceanography Command, revise the Naval Meteorology and Oceanography
Command “Concept of Operations,” October 22, 1996, to address joint
modeling based on the revisions to Joint Publication 3-59 as a result of
Recommendation A.3.

A.5. We recommend the Air Force Director of Weather revise Air Force
Instruction 15-128, “Aerospace Weather Operations—Roles and
Responsibilities,” November 3, 2000, and Air Force Manual 15-129,
“Aerospace Weather Operations—Processes and Procedures,” November 8,
2000, to address joint modeling based on the revisions to Joint
Publication 3-59 as a result of Recommendation A.3.

Navy Comments. The Deputy Assistant Secretary of the Navy (Environment),
in coordination with the Oceanographer of the Navy, concurred, stating that the
Navy supports the concept of joint modeling and is willing to discuss the
establishment of a Joint Modeling Center.

Air Force Comments. The Deputy Chief of Staff for Air and Space
Operations, in coordination with the Air Force Director of Weather,
nonconcurred, stating that Joint Publication 3-59 should not address specific
solutions, such as joint modeling.

Joint Staff Comments. Although not required to comment, the Director, Joint
Staff disagreed with the recommendation, based on the same comments provided
for Recommendation A.3.

Audit Response. Although the Navy concurred, we consider the comments
partially responsive because the Navy did not address modifying the Navy’s
concept of operations when Joint Publication 3-59 is revised. We consider the
Air Force comments to be nonresponsive to the intent of the recommendation.
Although the Air Force disagreed with updating its concept of operations for
providing METOC support to address joint modeling, it recognized the need to
jointly develop a next-generation mesoscale model. Because the future of NWP


                                   23
modeling appears to be moving from a single-agency approach to joint
development, including the concept of joint modeling in the Air Force concept
of operations for providing METOC support could define how it will address
the issue when supporting Service-specific and joint operations. The intent of
the recommendation was to address the significance of joint modeling in meeting
current and future DoD requirements. We believe it would be beneficial if the
Navy and the Air Force would address joint modeling in their concepts of
operations for providing METOC support for Service-specific and joint
operations. However, the issue will be resolved through resolution of
Recommendation A.3., that was addressed to the Joint Staff, so additional
comments are not requested.




                                  24
            B. Coordination and Review of
               Meteorological and Oceanographic
               Acquisition Category III and Below
               Program Requirements
            The Navy and the Air Force did not always review and comment on
            operational requirements documents (ORDs)32 for METOC acquisition
            category III and below33 programs. Specifically, of the 18 Navy and Air
            Force ORDs for FY 2001 METOC acquisition category III and below
            programs, valued at $486.9 million, 9, valued at $190.5 million, had not
            been reviewed by both the Navy and the Air Force for potential joint
            involvement. The ORDs were not being properly reviewed because the
            Navy and the Air Force did not have procedures for coordinating,
            reviewing, and commenting on ORDs for METOC acquisition
            category III and below programs. As a result, the Navy and the Air
            Force might be acquiring METOC acquisition category III and below
            programs that could be supported by existing systems or technology. In
            addition, the Services might not be deriving benefits that could flow from
            jointly developing, funding, and managing METOC programs.



Guidance
    The Joint Staff, the Navy, and the Air Force have guidance that addresses the
    requirements generation process for acquisition category II and below programs.
    The Joint Staff guidance includes the development and coordination of program
    ORDs. Although the guidance addresses acquisition category II and below
    programs, our review only included Navy and Air Force ORDs for METOC
    acquisition category III and below programs, which are also covered by the
    Joint Staff and Service guidance.

    Joint Guidance. Chairman of the Joint Chiefs of Staff Instruction 3170.01B,
    “Requirements Generation System,” April 15, 2001, establishes policies and
    procedures for developing and processing ORDs. In addition, Chairman of the
    Joint Chiefs of Staff Instruction 3170.01B:

            •   authorizes the Services to validate all acquisition category II and
                below program ORDs;



    32
      An operational requirements document is a document that contains operational performance
    requirements for a proposed concept or system.
    33
     Acquisition category III and below are non-major programs for which the milestone decision
    authority is designated by the Component acquisition executive and is assigned at the lowest
    appropriate level.



                                             25
        •    requires the Services to eliminate duplication through effective
             cooperation and coordination when developing ORDs by coordinating
             all ORDs with other DoD Components before validation to ensure
             that the ORDs cannot be supported by existing systems or
             technology; and

        •    requires that, during the coordination process, DoD Components
             reviewing an ORD identify and appropriately comment on whether
             the program has potential for joint involvement.

Chairman of the Joint Chiefs of Staff Instruction 3170.01B also requires DoD
Components to designate whether the program is considered to be one of the
following.

        •    An independent program34 that does not require further
             correspondence between the Service initiating the ORD and the DoD
             Component reviewing the ORD.

        •    A joint interest program35 that does not require further
             correspondence between the Service initiating the ORD and the DoD
             Component reviewing the ORD.

        •    A joint program36 that requires further comments and resolution
             between the Service initiating the ORD and the DoD Component
             reviewing the ORD.

Navy Guidance. Secretary of the Navy Instruction 5000.2B, “Implementation
of Mandatory Procedures for Major and Non-Major Defense Acquisition
Programs and Major and Non-Major Information Technology Acquisition
Programs,” December 6, 1996, prescribes procedures for developing and
processing Navy ORDs. The Navy Instruction requires the Chief of Naval
Operations to validate and approve acquisition category II and below program
ORDs. In addition, the Navy Instruction identifies procedures for developing
non-acquisition programs. A non-acquisition program is an effort that does not
directly result in the acquisition of equipment or a system for operational
deployment. An ORD is not required for a non-acquisition program. The Navy
Instruction requires the Chief of Naval Operations to manage all research and
development non-acquisition programs.




34
 An independent program designator indicates that the DoD Component reviewing the ORD
considers the program to provide no potential benefits for joint development.
35
 A joint interest program designator indicates that the DoD Component reviewing the ORD
considers joint management of the program to be inappropriate, but identifies that a potential
exists for other Service use.
36
  A joint program designator indicates that the DoD Component reviewing the ORD considers
the program to provide potential benefits for joint development, funding, and management.



                                           26
    Air Force Guidance. Air Force Instruction 10-601, “Mission Needs and
    Operational Requirements Guidance and Procedures,” August 13, 1999,
    prescribes procedures for developing and processing Air Force ORDs. The Air
    Force Instruction requires the Chief of Staff of the Air Force to validate and
    approve ORDs for acquisition category II and below programs.



Navy and Air Force Review of METOC ORDs
    The Navy and the Air Force did not always review and comment on ORDs for
    METOC acquisition category III and below programs. Specifically, of the
    18 Navy and Air Force ORDs for FY 2001 METOC acquisition category III and
    below programs, valued at $486.9 million, 9, valued at $190.5 million, were
    not reviewed by both the Navy and the Air Force for potential joint
    involvement. Chairman of the Joint Chiefs of Staff Instruction 3170.01B
    requires the Services to eliminate duplication through effective coordination of
    ORDs to ensure that the Services do not acquire acquisition category II and
    below programs that could be supported by existing systems or technology. In
    addition, the Services might derive benefits that could flow from jointly
    developing, funding, and managing METOC programs.

    Navy Review of Air Force METOC ORDs. We reviewed 14 Air Force
    FY 2001 METOC acquisition category III and below programs being acquired
    by the Combat Air Force Command and Control System Program Office to
    determine whether the Navy had reviewed the ORDs. The Navy had provided
    comments on 7 of the 14 ORDs. Table 1 shows the results of the Navy’s
    review of the seven Air Force METOC program ORDs.

                      Table 1. Navy Review of Air Force ORDs

                                                             Program Value
      Air Force METOC Programs       Navy Comments            (in millions)
     Air Force Combat Climatology
     Center Replacement               Joint Interest              $3.8
     Cloud Depiction and Forecast
     System—II                        Joint Interest              20.9
     Forecast System—21st Century     Joint Interest              65.9
     New Tactical Forecast System     Joint Interest               2.5
     Observing System—21 Century      Joint Interest               75.9
     Space Weather Analysis and
     Forecast System                  Joint Interest              34.9
     Tactical Weather Radar           Joint Interest              22.8
        Total                                                   $226.7




                                       27
Of the seven Air Force ORDs reviewed by the Navy, the Navy had
recommended all seven programs be designated as joint interest. Because
Chairman of the Joint Chiefs of Staff Instruction 3170.01B does not require
further correspondence for program ORDs designated as “joint interest,” no
further correspondence between the two Services existed. Table 2 shows the
seven Air Force ORDs for METOC programs that the Navy did not review.


               Table 2. Air Force ORDs Not Reviewed by the Navy
                                                                     Program Value
      Air Force METOC Programs                  Navy Comments         (in millions)

 Automated Weather Distribution System         No record of review         $2.2
 Global Theater Weather Analysis and
 Prediction System                             No record of review         17.8
 Reengineered Enterprise Infrastructure
 Program                                       No record of review         68.9
 Small Tactical Terminal                       No record of review         46.1
 Tactical Meteorological                       No record of review          1.0
 War Weather                                   No record of review         14.7
 Weather Information Processing System
 Upgrade                                       No record of review          2.8

    Total                                                               $153.5


Of the seven Air Force ORDs not reviewed by the Navy, officials in the Office
of the Deputy Chief of Naval Operations (Resources, Requirements, and
Assessments) stated that those ORDs had not been received by the office for
review and comment. However, the Air Force Requirements Division stated
that all seven ORDs had been submitted to the Office of the Deputy Chief of
Naval Operations (Resources, Requirements, and Assessments) for review and
comment.

Air Force Review of Navy METOC ORDs. We reviewed 14 Navy METOC
acquisition category III and below programs being acquired by the Meteorology
and Oceanography Systems Program Office, Space and Naval Warfare Systems
Command to determine whether the Air Force had reviewed the ORDs. Out of
the 14 Navy METOC programs, only 4 had ORDs. The Navy had not
developed ORDs for the remaining 10 programs because they were considered
non-acquisition programs. Secretary of the Navy Instruction 5000.2B does not
require non-acquisition programs to be coordinated or reviewed by other DoD
Components. Therefore, those 10 programs did not undergo a joint Service
review. Out of the four Navy ORDs, the Air Force had provided comments on
two. Table 3 shows the results of the Air Force’s review of those two Navy
ORDs.




                                          28
                      Table 3. Air Force Review of Navy ORDs
                                                                          Program Value
            Navy METOC Programs                    Air Force Comments      (in millions)

     Supplemental Weather Radar                      Joint Program             $4.6
     Tactical Environmental Support System            Joint Interest           65.1
        Total                                                                 $69.7


    Of the two Navy ORDs reviewed by the Air Force, the Air Force had
    recommended that one program be designated as joint interest and the other be
    designated as joint. The Navy agreed with the Air Force recommendation for
    the Supplemental Weather Radar program to be designated a joint program. As
    a result, the contract that the Meteorology and Oceanography Systems Program
    Office, Space and Naval Warfare Systems Command negotiated for the program
    allows the Air Force to purchase weather radars.

    Table 4 shows the two Navy ORDs for METOC programs that the Air Force
    did not review.


                Table 4. Navy ORDs Not Reviewed by the Air Force
                                                                        Program Value
         Navy METOC Programs             Air Force Comments              (in millions)
     AN/SMQ—11 Satellite Receiver
     Processor                               No record of review            $13.6
     Shipboard METOC Observing
     System—Replacement                      No record of review             23.4
        Total                                                               $37.0


    Navy officials stated that they had submitted the two ORDs for review and
    comment to other DoD Components; however, the Air Force Requirements
    Division stated it had not received the ORDs for review and comment.



Procedures for Reviewing and Commenting on ORDs
    The Navy and the Air Force did not have procedures for coordinating,
    reviewing, and commenting on ORDs for acquisition category II and below
    programs. Although Secretary of the Navy Instruction 5000.2B and Air Force
    Instruction 10-601 prescribe procedures for the development, validation, and
    approval of acquisition category II and below program ORDs, those instructions
    do not address coordinating acquisition category II and below ORDs with other
    DoD Components. In addition, the Navy and the Air Force instructions do not


                                              29
    establish timeframes for other DoD Component reviews of acquisition
    category II and below program ORDs or define procedures for reviewing and
    commenting on the ORDs to determine whether a program could be supported
    by existing systems or technology or whether a program was a candidate for
    joint involvement.



Review of Navy and Air Force ORDs to Eliminate Duplication
    The Navy and the Air Force might be acquiring METOC systems for acquisition
    category III and below programs that could be supported by existing systems or
    technology. In addition, the Services might not be deriving benefits that could
    flow from jointly developing, funding, and managing METOC programs. For
    example, the Air Force ORD for the “Observing System—21st Century
    Program,” August 27, 1999, states that the Army and Air Force have a direct
    need for knowing the actual environmental conditions that will be encountered
    in order to correctly launch missions, ensure precise weapons delivery, and
    protect warfighting assets. The Observing System—21st Century program is
    expected to consist of five separate systems: a fixed-based observing system; a
    deployable observing system; a remote expendable observing system; a manual
    observing system; and an upper-air observing system. Officials from the
    Combat Air Force Command and the Control System Program Office stated that
    the Observing System—21st Century program is integral to the Air Force
    Weather reengineering plan because it improves the ability of the Air Force to
    provide tailored information describing the operational impact on air, ground,
    and space operations.

    The Observing System—21st Century program represents the next-generation
    solution to requirements for METOC observing systems in all operational
    environments. The Air Force ORD for the system states that it “will be able to
    meet battlespace environmental observing requirements (e.g., soil moisture
    and temperature, illumination), not found in today’s equipment. These
    requirements include, but are not limited to, battlespace atmospheric profiles
    for the employment of precision-guided munitions [and] terrain conditions
    affecting maneuver of equipment and personnel.” Officials from the
    Meteorology and Oceanography Systems Program Office, Space and Naval
    Warfare Systems Command stated that the Navy was aware of the Air
    Force Observing System—21st Century program; however, they had not
    reviewed or commented on the ORD. We provided the program office with a
    copy of the Air Force Observing System—21st Century ORD. After
    reviewing the ORD, the program office indicated that the Navy could have
    potential uses for the deployable and upper-air observing components of the
    Observing System—21st Century program. DoD Components might derive
    potential benefits by jointly developing, funding, and managing the two
    components of the program, valued at $75.9 million.




                                      30
Conclusion
    Chairman of the Joint Chiefs of Staff Instruction 3170.01B requires the Services
    to eliminate duplication through effective coordination and cooperation.
    Although the Navy and the Air Force developed guidance addressing the
    development and processing of ORDs, specific guidance regarding coordinating
    and reviewing ORDs for joint involvement is not addressed in the
    Service-specific guidance. The Chairman of the Joint Chiefs of Staff
    Instruction 3170.01B also gives DoD Components the authority to validate and
    approve Service-generated ORDs for acquisition category II and below
    programs. As a result of the Navy and the Air Force authority to approve and
    validate ORDs for acquisition category II and below programs without ensuring
    that the ORDs have been effectively coordinated and commented on by other
    DoD Components, the Navy and the Air Force increase the risk of developing
    duplicate METOC equipment or technology.



Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend the Assistant Secretary of the Navy (Research,
    Development and Acquisition) revise Secretary of the Navy
    Instruction 5000.2B, “Implementation of Mandatory Procedures for Major
    and Non-Major Defense Acquisition Programs and Major and Non-Major
    Information Technology Acquisition Programs,” December 6, 1996, to
    include procedures for meteorological and oceanographic acquisition
    category II and below programs that address:

         a. Coordinating operational requirements documents with other
    DoD Components.

          b. Establishing timeframes for other DoD Component reviews of
    program operational requirements documents.

           c. Prescribing procedures for reviewing and commenting on
    operational requirements documents to determine whether a program could
    be supported by existing systems or technology or whether the program is a
    candidate for joint involvement.

    Navy Comments. The Deputy Assistant Secretary of the Navy (Environment),
    in coordination with the Oceanographer of the Navy, concurred with the need to
    coordinate review and comment on any METOC-related ORDs by DoD
    METOC components.

    Audit Response. We consider the Navy comments to be partially responsive to
    the intent of the recommendation. Although the Navy concurred with the
    recommendation, the Navy did not specifically address revising Secretary of the
    Navy Instruction 5000.2B. We request that the Navy provide additional
    comments in response to the final report.


                                       31
B.2. We recommend the Air Force Deputy Chief of Staff for Air and Space
Operations revise Air Force Instruction 10-601, “Mission Needs and
Operational Requirements Guidance and Procedures,” August 13, 1999, to
include procedures for meteorological and oceanographic acquisition
category II and below programs that address:

     a. Coordinating operational requirements documents with other
DoD Components.

      b. Establishing timeframes for other DoD Component reviews of
program operational requirements documents.

       c. Prescribing procedures for reviewing and commenting on
operational requirements documents to determine whether a program could
be supported by existing systems or technology or whether the program is a
candidate for joint involvement.

Air Force Comments. The Deputy Chief of Staff for Air and Space Operations
concurred, stating that such a review is mandated by a Chairman of the Joint
Chiefs of Staff instruction and that Air Force Instruction 10-601 is being
updated.




                                 32
Appendix A. Audit Process

Scope
    We reviewed and evaluated whether DoD, Joint Staff, and Military Department
    METOC-related guidance and memorandums issued from July 1947 through
    April 2001 were adequate to ensure that the Military Departments provided
    METOC support efficiently and effectively. Specifically, we reviewed Public
    Law 253, chapter 343, July 26, 1947; the Joint Architecture; Joint Vision 2010,
    July 1996; Joint Vision 2020; the NAVAF Agreement; the “Naval Meteorology
    and Oceanography Command Strategic Plan,” May 1997; the Naval
    Meteorology and Oceanography Command “Concept of Operations,”
    October 22, 1996; the Strategy for Research and Development, “A Roadmap to
    a Vision of Operational Oceanography,” September 2000; the “Air Force
    Weather Strategic Plan,” June 28, 2000; the Air Force Program Action
    Directive 97-10, “Reengineering Actions for Air Force Weather,” December 1,
    1997; and a FNMOC and AFWA inter-Service memorandum, “Recent NAVAF
    Meetings,” April 17, 2001. We reviewed the processes used by the Military
    Departments to generate requirements and develop or acquire new METOC
    technology and equipment. We also reviewed 18 Navy and Air Force ORDs for
    METOC acquisition category III and below programs that were developed and
    approved from August 1990 through June 2001. We evaluated interagency and
    inter-Service agreements and memorandums to determine the methods used by
    the Military Departments to collect, process, and disseminate METOC
    information and products. In addition, we reviewed METOC products and
    operations at the Navy regional METOC centers and Air Force operational
    weather squadrons in the continental United States.

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in DoD. This report provides coverage of the DoD Systems
    Modernization high-risk area.


Methodology
    We analyzed FNMOC and AFWA mission responsibilities to support the
    warfighter and reviewed Navy and Air Force METOC acquisition processes by:

           •   conducting interviews with personnel from the offices of the
               Commander in Chief, U.S. Joint Forces Command; the Commander
               in Chief, U.S. Central Command; the Commander in Chief, U.S.
               Transportation Command; the Director, Defense Research and
               Engineering (Science and Technology); the Defense Modeling and
               Simulation Organization; the Oceanographer of the Navy; the Deputy




                                      33
           Chief of Naval Operations (Resources, Requirements, and
           Assessments); the Air Force Director of Weather; the Air Force
           Directorate of Operational Requirements; and the Joint Staff;

       •   visiting FNMOC; the Marine Meteorology Division, Naval Research
           Laboratory; the Meteorology and Oceanography Systems Program
           Office, Space and Naval Warfare Systems Command; the Naval
           Atlantic Meteorology and Oceanography Center at Norfolk; the
           Naval Pacific Meteorology and Oceanography Center at San Diego;
           the Navy Technical Training Unit at Keesler Air Force Base,
           Mississippi; AFWA; the Air Combat Command Directorate of
           Weather at Langley Air Force Base, Virginia; the Air Mobility
           Command Directorate of Weather at Scott Air Force Base, Illinois;
           the Combat Air Force Command and Control System Program Office
           at Hanscom Air Force Base, Massachusetts; the 15th Operational
           Weather Squadron at Scott Air Force Base, Illinois; the
           26th Operational Weather Squadron at Barksdale Air Force Base,
           Louisiana; the 28th Operational Weather Squadron at Shaw Air
           Force Base, South Carolina; and the 335th Training Squadron at
           Keesler Air Force Base, Mississippi;

       •   evaluating the Navy and the Air Force coordination process for
           jointly producing and distributing METOC information;

       •   reviewing the Services’ acquisition, coordination, and requirements
           generation processes for METOC acquisition category III and below
           programs that collect, process, and disseminate information;

       •   identifying NWP models produced at FNMOC and AFWA that are
           needed to generate forecasts to support Army, Navy, Air Force, and
           joint operations;

       •   reviewing the Military Departments’ METOC training programs to
           determine the effect Air Force Weather reengineering had on joint
           METOC training; and
       •   reviewing Navy and Air Force regional support centers in the
           continental United States (the Naval Atlantic Meteorology and
           Oceanography Center at Norfolk, Virginia; the Naval Pacific
           Meteorology and Oceanography Center at San Diego, California; the
           15th Operational Weather Squadron at Scott Air Force Base, Illinois;
           the 26th Operational Weather Squadron at Barksdale Air Force Base,
           Louisiana; and the 28th Operational Weather Squadron at Shaw Air
           Force Base, South Carolina) to determine whether the centers were
           providing overlapping METOC services and support.

Use of Technical Assistance. The Office of the Inspector General, DoD, Audit
Followup and Technical Support Directorate, Technical Assessment Division
reviewed computer operating systems, communication systems, NWP modeling
procedures, and system interfaces for feasibility in developing a standard DoD
mesoscale NWP model or a joint NWP modeling center within DoD.



                                   34
    Audit Type, Dates, and Standards. We performed the program audit from
    April 2001 through January 2002 in accordance with generally accepted
    government auditing standards. We did not use computer-processed data to
    perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.



Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of the Military Departments’ management controls related to METOC
    support in the continental United States. Specifically, we reviewed Navy and
    Air Force NWP modeling activities at FNMOC and AWFA. We also reviewed
    management’s self-evaluation applicable to providing uninterrupted METOC
    support to the warfighter.

    Adequacy of Management Controls. We identified a material management
    control weakness within the Navy and the Air Force as defined by DoD
    Instruction 5010.40. FNMOC and AFWA did not establish or test a formalized
    continuity of operations plan to ensure DoD forces were provided uninterrupted
    quality METOC services and support. Without formalized and tested
    operational backup within DoD, FNMOC and AFWA might not adequately
    accomplish their mission of providing the warfighter with accurate, timely, and
    reliable METOC services and support. DoD Instruction 5010.40 defines control
    weaknesses as material when the weakness impairs fulfillment of essential
    missions or operations. Recommendation A.2.a., if implemented, will ensure
    FNMOC and AFWA are able to provide adequate and continuous METOC
    support. A copy of the final report will be sent to the senior official in charge
    of management controls in the Offices of the Oceanographer of the Navy and
    the Air Force Director of Weather.

    Adequacy of Management’s Self-Evaluation. The Oceanographer of the Navy
    and the Air Force Director of Weather did not identify operational back-up
    capabilities for providing uninterrupted METOC support as an assessable unit
    because FNMOC and AWFA did not develop a mutually agreed-upon continuity
    of operations plan. Therefore, the Oceanographer of the Navy and the Air
    Force Director of Weather did not identify or report the material management
    control weakness identified by the audit.




                                       35
Prior Coverage
     During the last 5 years, the following reports have been issued that are relevant
     to this report. Unclassified Inspector General, DoD, reports can be accessed
     over the Internet at http://www.dodig.osd.mil/audit/reports.


Inspector General, DoD
     Inspector General, DoD, Report No. D-2001-157, “Global Command and
     Control System—Meteorological and Oceanographic Application,” July 11,
     2001

     Inspector General, DoD, Report No. D-2001-152, “Meteorological and
     Oceanographic Support in the European Theater,” June 28, 2001

     Inspector General, DoD, Report No. D-2001-151, “Meteorological and
     Oceanographic Support in the Pacific Theater,” June 28, 2001

     Inspector General, DoD, Report No. D-2001-133, “Deliberate Planning for
     Meteorological and Oceanographic Operations (U),” June 1, 2001

     Inspector General, DoD, Report No. D-2001-121, “Use of the DoD Joint
     Technical Architecture in the Acquisition Process,” May 14, 2001

     Inspector General, DoD, Report No. D-2001-018, “Management and Oversight
     of the DoD Weather Program,” December 14, 2000

     Inspector General, DoD, Report No. 98-023, “Implementation of the DoD Joint
     Technical Architecture,” November 18, 1997




                                         36
Appendix B. Meteorological and Oceanographic
            Support and Training
    We evaluated METOC services and support provided by Navy and Air Force
    regional support centers in the continental United States and determined the
    Navy and the Air Force were not providing overlapping METOC services and
    support. In addition, we evaluated changes to the Air Force Weather training
    philosophy that were implemented to improve the quality and quantity of Air
    Force Weather forecasters.



Regional METOC Support From the Continental United
  States
    We reviewed operational support provided by the two Navy regional METOC
    centers located in the continental United States, the Naval Atlantic Meteorology
    and Oceanography Center in Norfolk, Virginia, and the Naval Pacific
    Meteorology and Oceanography Center in San Diego, California. In addition,
    we reviewed operational support provided by three of the four Air Force
    operational weather squadrons located in the continental United States, the 15th
    Operational Weather Squadron at Scott Air Force Base, Illinois; the 26th
    Operational Weather Squadron at Barksdale Air Force Base, Louisiana; and the
    28th Operational Weather Squadron at Shaw Air Force Base, South Carolina.
    We did not visit the 25th Operational Weather Squadron at Davis Monthan Air
    Force Base, Arizona.

    Navy Regional Support Centers in the Continental United States. The Navy
    provides operational METOC support for the Atlantic and Pacific Fleets and
    joint operations from regional centers in the continental United States. The
    Naval Atlantic Meteorology and Oceanography Center provides the Commander
    in Chief, Second Fleet with aviation and energy conservation forecasts, en route
    weather support for ships, high-wind warnings, optimum track ship routing
    services,1 and the effects of METOC conditions on operations and weapon
    systems. In addition, the Naval Atlantic Meteorology and Oceanography Center
    provides specialized METOC support for the North Atlantic Treaty
    Organization. The Naval Pacific Meteorology and Oceanography Center
    provides the Commander in Chief, Third Fleet with high-wind warnings,
    optimum track ship routing services, en route weather support for ships,
    aviation forecasts, and the effects of METOC conditions on operations. The
    Naval Pacific Meteorology and Oceanography Center also serves as the Navy



    1
     Optimum track ship routing is a Navy advisory service designed to minimize en route time and
    fuel consumption while ensuring minimal risk from damage caused by tropical storms, high
    seas, and sea ice.



                                             37
developmental test site for METOC systems. In addition, both centers provide
direct mobile environmental team support to ships not permanently assigned an
Operational Aerography Division.2
Air Force Operational Weather Squadrons in the Continental United States.
The Air Force provides operational METOC support for units assigned to the
Air Mobility Command and Air Combat Command (the 8th Air Force and the
9th Air Force) from regional centers in the continental United States. The
15th Operational Weather Squadron provides the Commander in Chief, U.S.
Transportation Command with air refueling, drop zone, landing zone, and
transient aircraft forecasts; flight weather briefs; and terminal aerodrome
forecasts3 for Army, Air Force, and joint operations. The 15th Operational
Weather Squadron provides operational forecasts to support worldwide military
airlift missions. In addition, the 15th Operational Weather Squadron provides
tailored local area forecasts to Army and Air Force units assigned to bases in the
northeastern United States. The 26th Operational Weather Squadron provides
the Commanders in Chief, U.S. Joint Forces Command and U.S. Strategic
Command with air refueling, drop zone, landing zone, and transient aircraft
forecasts; flight weather briefs; and terminal aerodrome forecasts for Army, Air
Force, and joint operations. In addition, the 26th Operational Weather
Squadron provides local area forecasts to Army and Air Force units assigned to
bases in the south-central United States. The 28th Operational Weather
Squadron provides the Commander in Chief, U.S. Central Command with air
refueling, drop zone, landing zone, and transient aircraft forecasts; flight
weather briefs; and terminal aerodrome forecasts for Army, Air Force, and joint
operations. In addition, the 28th Operational Weather Squadron provides local
area forecasts to Army and Air Force units assigned to bases in the southeastern
United States. The operational weather squadrons serve as the primary links
between AFWA and the tactical weather units that are responsible for providing
mission-specific METOC support.

Operational METOC Support. The Navy and the Air Force provide METOC
support from regional centers located in the continental United States. The
Navy regional METOC centers provide tailored services and support to meet
operational requirements of the Atlantic and Pacific Fleets. The Air Force
operational weather squadrons provide tailored forecasts for numbered Air
Force units and unified commanders operating in specific regions abroad or in
the continental United States. The Navy and Air Force continental United
States-based regional centers provide specialized METOC support for air, land,
and sea operations abroad and for DoD forces operating in the continental
United States. Because Navy and Air Force regional centers provide METOC
support for separate areas of responsibility and unique operational requirements,
it does not appear that the Navy and the Air Force were providing overlapping
METOC support from the five continental United States-based regional centers
reviewed.


2
 Operational Aerography Divisions are assigned to ships and provide on-scene METOC services
to ensure operational safety and optimal use of Navy weapon systems.
3
 Terminal aerodrome forecasts are concise statements of expected meteorological conditions at
an airfield during a specified period (usually 24 hours).



                                          38
Reengineered Air Force Training Concept
    We reviewed the reengineered Air Force Weather training concept to determine
    whether changes to the program would affect joint METOC support.

    Background. Following Operation Desert Storm, Air Force Weather was
    unable to meet requirements for accurate and timely weather support. From
    1995 through 1997, the Air Force Weather program conducted several standard
    evaluations on various weather functions and determined that 33 percent of the
    units inspected failed to meet established standards. The Air Force did not meet
    established standards because a lack of skilled senior forecasters created a
    serious experience deficit that, in part, contributed to the production of
    unsatisfactory weather products and because the forecaster training program did
    not adequately prepare forecasters for the tasks they would encounter “in the
    field.” The original Air Force Weather training program required students to
    attend a 18-week Weather Apprentice Course at Keesler Air Force Base that
    was designed to teach the basic meteorological skills students would need to
    become observers. Once the initial training assignment was completed, the
    observers were assigned to Combat Weather Teams and were assigned
    responsibilities that they were not adequately trained to perform. Because of a
    high operational tempo, the Combat Weather Teams did not provide an adequate
    source of on-the-job training. In addition, the Combat Weather Teams had a
    shortage of senior forecasters and, as a result, were not able to adequately
    mentor and supervise the newly assigned Air Force Weather personnel. After
    completing their first assignment, students that chose to continue their military
    careers were then required to attend a 22-week advanced Weather Forecaster
    Course at Keesler Air Force Base where they learned detailed meteorological
    forecasting skills.

    Reengineered Air Force Training Program. Air Force Weather reengineering
    was designed to take advantage of developments in technology and to focus Air
    Force Weather functions toward a common goal. The “Air Force Weather
    Strategic Plan,” August 1, 1997 (updated June 28, 2000), states that one of the
    goals of Air Force Weather reengineering is to “revolutionize training—create a
    continuous, efficient, and effective training process to build a premier combat
    weather force focused on operations.” Program Action Directive 97-10
    “Reengineering Actions for Air Force Weather,” December 1, 1997, was
    designed to enhance mission focus and improve Air Force Weather capabilities
    by providing meteorological services through an improved operational and
    organizational structure by transferring routine, 24-hour forecasting, aviation
    briefings, and selected meteorological advisory and warning responsibilities
    from tactical units to operational weather squadrons.4 The Air Force Weather
    Strategic Plan states that Air Force Weather reengineering occurred because of
    decreased personnel resources and experience levels at weather stations,



    4
     An operational weather squadron is responsible for tailoring regional forecasts and using
    products indigenous to the operating area to provide fine-scale meteorological forecasts needed
    for base resource protection, flight operations, and operational decisionmaking.



                                              39
different support structures required to provide meteorological services in
peacetime and wartime, inadequate training, and less-than-optimal
organizational career paths.

To reengineer Air Force METOC training, the Air Force designed a majority of
its training mission at operational weather squadrons. The training curriculum
for the operational weather squadrons was developed to assist forecaster
apprentices and recent Introductory Skills Course graduates in designing
weather briefings based on real-world situations. The classrooms were designed
to parallel the operation watch floor at the operational weather squadrons. By
training in an operational environment, the students are able to observe
decisionmaking skills needed to forecast METOC conditions and, through daily
evaluations, gain confidence to become proficient and successful while actually
contributing to products produced by the operational weather squadron. In
addition, Air Force Weather training enables the students to see the impact
forecasts have on daily Air Force operations.

Use of Contract Trainers. The Air Force Weather reengineering concept
employs professional training contractors from the Science Applications
International Corporation because of a lack of experienced, senior Air Force
Weather forecasters. Contract trainers assigned to operational weather
squadrons were required to develop and teach basic forecasting courses in
conjunction with the Air Force Weather personnel assigned to the operational
weather squadron. The contract trainers not only provide experienced
educational support, but also provide continuity of operations because active
duty Air Force personnel typically rotate every 2 years but the contract trainers
are permanently assigned to the operational weather squadrons. Until the
number of experienced forecasters increases, the Air Force Weather community
will continue to use contract trainers to accomplish the reengineered weather
training mission.

Benefits of Reengineered Training. Under the reengineered Air Force training
program, students are expected to learn forecasting skills quicker than they did
in a traditional classroom setting. Additionally, forecaster apprentices are
contributing to the daily operations much sooner than they were able to before
reengineering. By combining the development of forecasting skills with actual
operational support, the reengineered training concept improves the quality of
Air Force Weather forecasts and the efficiency of human resources, thereby
meeting the intent of the Air Force Weather Strategic Plan.




                                    40
Appendix C. Navy Energy Conservation
            Forecast Program
   We reviewed an Energy Conservation Forecast Program developed by the Naval
   Atlantic Meteorology and Oceanography Center in Norfolk, Virginia, to
   determine whether the benefits derived from the program could benefit not only
   the Navy, but also other Military Departments.

   Background. In September 1983, the Naval Atlantic Meteorology and
   Oceanography Center established an Energy Conservation Forecast Program to
   aid base engineers in planning and decisionmaking regarding the use of energy
   resources. The Energy Conservation Forecast Program was designed to provide
   long-range forecasts to participating military bases with seasonal energy needs
   to decrease energy use and aid energy buyers in making fuel purchases. By
   projecting the estimated timeframe when temperatures are expected to change,
   energy planners can economize the amount of money spent on climate control
   by turning the heat or air conditioning on at the appropriate time, rather than
   turning it on too early or turning it off too late. In January 2001, the
   Commander in Chief, U.S. Atlantic Fleet reemphasized the need to conserve
   energy. He directed all subordinate commands, by March 1, 2001, to
   participate in the Energy Conservation Forecast Program because it standardized
   criteria, maximized savings, and improved the process for making
   energy-related decisions throughout the Atlantic Fleet.

   Energy Conservation Forecasting Program. The Naval Atlantic Meteorology
   and Oceanography Center uses long-range weather forecasts, climatological
   data, and specific customer profiles to develop energy conservation action
   recommendations that are tailored to specific locations and geographic regions.
   DoD Instruction 4170.10, “Energy Management Policy,” August 1991, requires
   DoD to minimize the amount of energy used, and its cost, while meeting
   operational mission support requirements and providing quality working and
   living conditions for DoD personnel and dependents. In addition, DoD
   Instruction 4170.10 states that DoD Components are responsible for ensuring
   that all cost-effective actions are taken to eliminate energy waste; for improving
   energy use efficiency; and for implementing measures to reduce energy costs.
   The Energy Conservation Forecast Program enables customers to save fuel and
   money by optimizing energy resources and making informed energy
   management decisions. Since the program began, the Naval Atlantic
   Meteorology and Oceanography Center has provided energy conservation
   forecasts at no cost to its customers. As of August 2001, the Naval Atlantic
   Meteorology and Oceanography Center was using four METOC personnel at an
   annual cost of $310,000 to provide forecasts to 131 customers, including various
   Coast Guard and Army installations.∗ As of August 2001, the Naval Atlantic



   ∗
    A similar service provided by the National Weather Service or other commercial providers
   costs an average $5,000 to $7,000 per location.



                                            41
Meteorology and Oceanography Center had documented a reduction of more
than $66 million in fuel and energy costs through the Energy Conservation
Forecast Program since 1983.

Use of the Energy Conservation Forecast Program Service. Program
managers from the Naval Atlantic Meteorology and Oceanography Center
provided briefings on the program to Navy and DoD program offices
responsible for managing energy use and installations in an effort to offer
energy conservation forecasts to all of DoD. In May 2001, the Commanding
Officer, Naval Atlantic Meteorology and Oceanography Center and the Energy
Conservation Forecast Program Manager provided a status review to the Office
of the Deputy Assistant Secretary of the Navy (Installations and Facilities). As
a result, the Office of the Deputy Assistant Secretary of the Navy (Installations
and Facilities) planned to direct all Navy and Marine Corps installations in the
continental United States to use the Energy Conservation Forecast Program.

In July 2001, the Commanding Officer, Naval Atlantic Meteorology and
Oceanography Center and the Energy Conservation Forecast Program Manager
met with the Office of the Deputy Under Secretary of Defense for Installations
(Housing and Energy) to discuss the potential benefits of using the program. As
a result of the July 2001 meeting, the Office of the Deputy Under Secretary of
Defense for Installations (Housing and Energy) directed the Naval Atlantic
Meteorology and Oceanography Center to coordinate and brief the appropriate
energy offices within each Military Department on the Energy Conservation
Forecast Program. In addition, the Office of the Deputy Assistant Secretary of
the Navy (Installations and Facilities) directed the Naval Atlantic Meteorology
and Oceanography Center to provide a briefing on the program to energy
officials within the Army and the Air Force. However, the Office of the
Deputy Under Secretary of Defense for Installations (Housing and Energy) did
not offer additional support or resources to the Naval Atlantic Meteorology and
Oceanography Center should other customers subscribe to the Energy
Conservation Forecast Program.
Appendix D. Meteorological and Oceanographic
            Conditions Predicted by Navy and
            Air Force Mesoscale Models
   The following is a partial list of METOC conditions predicted by both
   COAMPS and MM5 mesoscale NWP models.

          •   Dew point depression

          •   Pressure

          •   Relative humidity

          •   Sea state (when coupled to an ocean model)

          •   Soil moisture (when coupled to a land-surface model)

          •   Soil temperature (when coupled to a land-surface model)

          •   Sea-surface temperature (when coupled to an ocean model)

          •   Temperature

          •   Upper-air pressure

          •   Wind direction

          •   Wind speed




                                     43
Appendix E. Navy and Air Force Mesoscale
            Numerical Weather Prediction
            Model Coverage
   As of August 2001, the following worldwide geographic areas were supported
   by globally relocatable Navy COAMPS nested grids.


                                                 Coupled Ocean/Atmosphere
                     COAMPS                      Mesoscale Prediction System




   The fine-scale (9 and 27 km resolution) nested grids are not the only areas
   where Navy METOC support is provided. FNMOC disseminates the fine-scale
   COAMPS nested grids to Navy regional METOC centers. The Navy regional
   centers are capable of running mesoscale NWP models on the Distributed
   Atmospheric Modeling Prediction System∗ using COAMPS data to further
   generate theater forecasts for their specific areas of responsibility, thereby
   reducing the number of fine-scale nested grids produced by FNMOC.




   ∗
    The Distributed Atmospheric Modeling Prediction System is a Navy system that allows regional
   centers to integrate high-resolution data and on-scene observations into global and regional
   models produced by FNMOC to support tactical warfighters.
As of August 2001, the following worldwide geographic areas were supported
by globally relocatable Air Force MM5 nested grids.




     White boxes (boxes containing a “T”) are 45 km resolution
     Red boxes (mid-size boxes) are 15 km resolution
     Yellow boxes (smallest boxes) are 5 km resolution




                                 45
Appendix F. Air Force Comments on the
            Finding and Audit Response
     This appendix addresses comments provided by the Air Force Deputy Chief of
     Staff for Air and Space Operations on the draft report concerning finding A.
     See the Management Comments section of the report for the full text of the Air
     Force comments.



Joint Forecast Consistency
     Air Force Comments. The Air Force stated that forecasters are more likely to
     use models they have tuned, such as MM5, to meet Service-specific missions
     and to provide the best possible information to support Army and Air Force
     flight operations. The report conclusions imply that a forecaster should always
     be limited to a single model. The Air Force uses multiple models in
     formulating forecasts because doing so provides the greatest insight into the
     range of possible future meteorological conditions. The answer to a lack of
     familiarity with a source of information is to increase that familiarity rather than
     ignoring it. In addition, the report shows a continued lack of understanding of
     Air Force Weather reengineering because the Operational Weather Squadron–
     Combat Weather Team construct does not intend to provide raw model data
     down to the lowest levels. The Operational Weather Squadron provides the
     Combat Weather Team warfighter-focused products that already incorporate
     NWP inputs so the team can tailor the support to individual missions and
     operations.

     Audit Response. We disagree with the Air Force statements that the report
     conclusions imply that a forecaster should always be limited to a single model
     and that the report shows a lack of understanding of Air Force Weather
     reengineering. The intent of that section of finding A is to have the Navy and
     the Air Force implement the accepted NAVAF Agreement initiative to
     “Implement Joint Theater Forecast Consistency” by consolidating their separate
     mesoscale NWP models and developing a standard next-generation DoD
     mesoscale NWP model. The NAVAF Agreement initiative states that the Navy
     and the Air Force should evaluate the types of data and the products required by
     theater forecasters and determine at which DoD center those products should be
     developed. We believe the use of Service-specific mesoscale NWP models by
     the Navy and the Air Force does not facilitate the ability of the Services to
     provide consistent METOC forecasts during joint operations and does not
     support the “one theater, one forecast” concept identified in Joint
     Publication 3-59.
Joint Modeling
    Air Force Comments. The Air Force stated that the report’s assertion that a
    lack of a common NWP model hinders consistency in forecasting for operations
    is incorrect. The NWP output is only one of a number of factors leading to a
    forecast and is not necessarily always the primary determining factor. There is
    no proof that adopting a single model means that the model will be the best one
    under all conditions and locations. In addition, models have unique strengths
    and weaknesses that can actually improve forecasting capabilities when used in
    concert.

    Audit Response. We recognize that an operational forecast is developed using
    more than the output from an NWP model and that several others factors, such
    as the mathematical and physical relationship between METOC data derived
    from the occurrence of weather on the earth’s surface, upper-air, and
    oceanographic observations, contribute to the development of a operational
    forecast. However, we believe that the development of a joint DoD NWP
    model would aid in forecasts that are provided in support of joint operations.
    Futher, reducing those variances within the forecasts will aid the Joint METOC
    Officer in making more timely decisions in support of the warfighter.




                                       47
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Research and Engineering
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Joint Staff
Director, Joint Staff

Department of the Army
Deputy Chief of Staff for Intelligence
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Oceanographer of the Navy
Commander, Naval Meteorology and Oceanography Command
   Commanding Officer, Fleet Numerical Meteorology and Oceanography Center
   Commanding Officer, Naval Atlantic Meteorology and Oceanography Center
   Commanding Officer, Naval Pacific Meteorology and Oceanography Center,
     San Diego
Program Manager, Meteorological and Oceanographic Systems, Space and Naval
   Warfare Systems Command
Superintendent, Marine Meteorology Division, Naval Research Laboratory

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Director of Weather
  Commander, Air Force Weather Agency
  Commander, 15th Operational Weather Squadron
  Commander, 26th Operational Weather Squadron
  Commander, 28th Operational Weather Squadron
Commander, Combat Air Force Command and Control System Program Office
Unified Commands
Commander in Chief, U.S. European Command
Commander in Chief, U.S. Pacific Command
Commander in Chief, U.S. Joint Forces Command
Commander in Chief, U.S. Southern Command
Commander in Chief, U.S. Central Command
Commander in Chief, U.S. Space Command
Commander in Chief, U.S. Special Operations Command
Commander in Chief, U.S. Transportation Command
Commander in Chief, U.S. Strategic Command

Other Defense Organizations
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         49
Joint Staff Comments




                       51
Final Report
 Reference




Page 18




Page 19




Page 20




               52
     Final Report
      Reference




     Page 21




     Page 22




     Page 23



     Page 23




53
Final Report
 Reference




Page 31

Page 32




               54
Department of the Navy Comments




                     55
56
57
Department of the Air Force Comments




                     58
59
60
61
62
     Final Report
      Reference




     Revised




63
64
65
Final Report
 Reference




Revised




Revised




Revised




               66
     Final Report
      Reference




     Revised




67
Final Report
 Reference




Footnote 6

Revised



Revised




               68
69
Final Report
 Reference




Revised




               70
     Final Report
      Reference




     Revised




     Revised




71
Final Report
 Reference




Revised




               72
     Final Report
      Reference




     Page 12
     Revised


     Page 12
     Revised




73
Final Report
 Reference




Revised


Revised




               74
     Final Report
      Reference




     Page 12
     Revised




     Page 15




75
Final Report
 Reference




Revised




Page 17




Page 28




               76
     Final Report
     Reference




     Page 28




     Page 37




77
Final Report
 Reference




Page 37




Page 40
Revised




               78
79
80
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector General, DoD, who contributed to the report are listed
below.

    Shelton R. Young
    Evelyn R. Klemstine
    Gary R. Padgett
    Sean J. Keaney
    Captain Gregory W. Lewis, U.S. Marine Corps
    Frank J. Kelly




                                   81
